<html>
<title> - PATIENT PROTECTION AND AFFORDABLE CARE ACT: IMPLEMENTATION IN THE WAKE OF ADMINISTRATIVE DELAY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





PATIENT PROTECTION AND AFFORDABLE CARE ACT: IMPLEMENTATION IN THE WAKE 
                                   OF
                          ADMINISTRATIVE DELAY

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2013

                               __________

                           Serial No. 113-72






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-396                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana                  Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
CORY GARDNER, Colorado               BRUCE L. BRALEY, Iowa
MIKE POMPEO, Kansas                  PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             EDWARD J. MARKEY, Massachusetts
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    G.K. BUTTERFIELD, North Carolina
CORY GARDNER, Colorado               KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 GENE GREEN, Texas
RENEE L. ELLMERS, North Carolina     JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)



























                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the state 
  of Colorado, opening statement.................................     4
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9
Hon. Gregg Harper, a Representative in Congress from the State of 
  Mississippi, opening statement.................................    54

                               Witnesses

J. Mark Iwry, Senior Advisor to the Secretary, Deputy Assistant 
  Secretary for Retirement and Health Policy, U.S. Department of 
  Treasury.......................................................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   101

                           Submitted Material

Report, Majority staff, submitted by Mr. Murphy..................    55
Report, Urban Institute Analysis, submitted by Ms. DeGette.......    58
Report, Democratic Staff of Committees on Energy and Commerce, 
  Ways and Means, and Education and the Workforce, submitted by 
  Mr. Waxman.....................................................    64
Report, Department of Health and Human Services, submitted by Mr. 
  Waxman.........................................................    89

 
PATIENT PROTECTION AND AFFORDABLE CARE ACT: IMPLEMENTATION IN THE WAKE 
                        OF ADMINISTRATIVE DELAY

                              ----------                              


                        THURSDAY, JULY 18, 2013

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:34 p.m., in 
room 2123 of the Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, Burgess, 
Blackburn, Gingrey, Scalise, Harper, Olson, Gardner, Griffith, 
Johnson, Long, Ellmers, Barton, Upton (ex officio), DeGette, 
Schakowsky, Butterfield, Castor, Tonko, Green, and Waxman (ex 
officio).
    Staff present: Mike Bloomquist, General Counsel; Sean 
Bonyun, Communications Director; Matt Bravo, Professional Staff 
Member; Karen Christian, Chief Counsel, Oversight; Noelle 
Clemente, Press Secretary; Andy Duberstein, Deputy Press 
Secretary; Paul Edattel, Professional Staff Member, Health; 
Julie Goon, Health Policy Advisor; Brad Grantz, Policy 
Coordinator, Oversight and Investigations; Sydne Harwick, 
Legislative Clerk; Brittany Havens, Legislative Clerk; Sean 
Hayes, Counsel, Oversight and Investigations; Andrew Powaleny, 
Deputy Press Secretary; John Stone, Counsel, Oversight; Tom 
Wilbur, Digital Media Advisor; Brian Cohen, Democratic 
Subcommittee Staff Director, Senior Policy Advisor; Hanna 
Green, Democratic Staff Assistant; Elizabeth Letter, Democratic 
Assistant Press Secretary; Stephen Salsbury, Democratic Special 
Assistant; and Matthew Siegler, Democratic Counsel.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good afternoon. I convene this hearing of the 
Subcommittee on Oversight and Investigations.
    We are here today to discuss the Administration's recent 
decision to delay a substantial portion of the health care law, 
the requirement that businesses with over 50 employees provide 
coverage to their employees. This decision was announced 
quietly, just before the July 4 holiday, through a blog post.
    Valerie Jarrett, one of the President's top advisors, 
stated that the Administration had delayed the employer mandate 
tax because it was ``listening'' to employers who had 
complained about the law's burdens and costs.
    In the 3 years since the President's health care law was 
enacted, this committee has also been listening and we have 
heard this Administration repeatedly tell us that ``all is 
well.'' The exchanges would be ready to go live in October. 
Never once did the Administration officials suggest that a key 
underpinning of the law, the requirement that employers report 
offer federally-approved health benefits and pay extra taxes if 
they didn't, would be delayed.
    As soon as the Treasury Department announced this decision 
in a blog post, the committee sent a letter asking for some 
basic information to understand how and why this decision was 
made. The Executive Branch, the President, has a constitutional 
duty to faithfully execute laws passed by Congress.
    Both the Treasury Department and White House have said the 
decision to delay the employer mandate was made after engaging 
in a discussion with employers. Yet, in a July 9 letter to our 
committee, the Treasury Department did not answer the 
committee's questions about who they spoke with to reach this 
decision. Why did the Administration give businesses a waiver 
from the law for a full year, but force families to comply with 
the law now or pay a new tax? Where is the waiver for America's 
families?
    This delay in the employer mandate tax is not the first 
clue that implementation of the Affordable Care Act is becoming 
a massive failure. In April 2011, more than 1,400 organizations 
and employers providing health insurance to 3.1 million 
Americans were granted waivers from the ACA's mandates for one 
year. By January 2012, those 1,400 waivers were automatically 
extended for 2 more years, and now, every employer in America 
gets a waiver from the employer mandate tax. The American 
people, however, get no waivers from the mandates, the taxes, 
and burdens of this law.
    It is interesting that the Treasury Department chose to 
explain that the employer mandate was delayed for two reasons: 
First, it will allow the Administration to find ways to 
simplify the reporting requirements in the law. Second, this 
provides time to adapt reporting systems. These same reasons 
support a delay for the individual mandate.
    Treasury's position that a delay is necessary because 
additional time is needed to adapt reporting systems sends a 
troubling signal about how the Administration's lack of 
progress is affecting implementation of the law. How the 
exchanges will operate next year appears now to be a far cry 
from what the law envisioned. It also raises questions about 
another recent delay by the Administration, also announced over 
the July 4 holiday: Health and Human Services' decision to 
scrap the income and coverage verification requirements for 
2014.
    I am sure today we will also hear a great deal about the 
news that New York's premiums may be lower. This isn't 
surprising: New York has the most heavily regulated and often 
the most expensive health care market in the country, so of 
course when you force every American to buy that expensive 
product, the cost may go down. I certainly am not going to be 
heading home to my district and saying congratulations, you now 
get to pay Manhattan prices in Pennsylvania.
    Enrollment in the exchanges will begin in just over 70 
days. It is important that every American understands how this 
system will work. So testifying before the committee today is 
J. Mark Iwry, Senior Advisor to the Secretary and Deputy 
Assistant Secretary for Retirement and Health Policy at the 
U.S. Department of the Treasury. So I welcome you, Mr. Iwry, 
and I hope that you can provide specific answers to the 
committee members' questions about Treasury's decision and 
whether we can expect additional delays.
    Now yesterday the House of Representatives voted to do two 
things. First, the House voted to codify the President's 
ability to delay the employer mandate, and second, it voted to 
offer this same option, the one given to America's businesses, 
to American families. Whether or not you agree on this policy, 
as an oversight subcommittee, we need to understand the basis 
for the Administration's decisions to delay or postpone the 
Act's requirements. As reports mount that the exchanges and 
states are not prepared to fully implement this law, it seems 
likely that the Administration will again find itself in the 
position of wanting to grant additional delays of the law's 
requirements. Examining the basis for these decisions, and how 
they will be made, is the job of this subcommittee, and that is 
the reason for having this hearing today.
    I only have a few seconds left, but I yield to the vice 
chairman, if he has any----
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    We are here today to discuss the administration's recent 
decision to delay a substantial portion of the healthcare law--
the requirement that businesses with over 50 employees provide 
coverage to their employees. This decision was announced 
quietly, just before the July 4th holiday, through a blog post. 
Valerie Jarrett, one of the president's top advisors, stated 
that the administration had delayed the employer mandate tax 
because it was ``listening'' to employers who had complained 
about the law's burdens and costs.
    In the three years since the president's health care law 
was enacted, this committee has also been listening and we've 
heard this administration repeatedly tell us that ``all is 
well.'' That exchanges would be ready to go live in October.
    Never once did administration officials suggest that a key 
underpinning of the law--the requirement that employers report 
offer federally-approved health benefits and pay extra taxes if 
they didn't--would be delayed.
    As soon as the Treasury Department announced this decision 
in a blog post, the committee sent a letter asking for some 
basic information to understand how and why this decision was 
made. The executive branch--the president--has a constitutional 
duty to faithfully execute laws passed by Congress.
    Both the Treasury Department and White House have said the 
decision to delay the employer mandate was made after engaging 
in a discussion with employers. Yet, in a July 9th letter to 
our committee, the Treasury department did not answer the 
committee's question about who officials spoke with to reach 
this decision. Why did the administration give businesses a 
waiver from the law for a full year, but force individual 
Americans to comply with the law NOW or pay a new tax?
    Where is the waiver for the American people?
    This delay in the employer mandate tax is not the first 
clue that implementation of the Affordable Care Act is becoming 
a massive failure.
    In April 2011, more than 1,400 organizations and employers 
providing health insurance to 3.1 million Americans were 
granted waivers from the ACA's mandates for one year.
    By January 2012, those 1,400 waivers were automatically 
extended for two more years.
    And now, every employer in America gets a waiver from the 
employer mandate tax.
    The American people, however, get no waiver from the 
mandates, the taxes, and burdens of this law.
    It is interesting that the Treasury Department chose to 
explain that the employer mandate was delayed for two reasons: 
First, it will allow the administration to find ways to 
simplify the reporting requirements in the law. Second, this 
provides time to adapt reporting systems. These same reasons 
support a delay in the individual mandate.
    Treasury's position that a delay is necessary because 
additional time is needed to adapt reporting systems sends a 
troubling signal about the administration's lack of progress in 
implementing the law. How the exchanges will operate next year 
appears now to be a far cry from what the law envisioned. It 
also raises questions about another recent delay by the 
administration, also announced over the July 4 holiday: HHS' 
decision to scrap the income and coverage verification 
requirements for 2014.
    I'm sure today we will also hear a great deal about the 
news that New York's premiums may be lower. This isn't 
surprising: New York has the most heavily regulated and often 
most expensive health care market in the country, so of course 
when you force every American to buy that expensive product, 
the cost may go down. I certainly am not going to be heading 
home to my district and saying: ``Congratulations, you now get 
to pay Manhattan prices in Pennsylvania.''
    Enrollment in the exchanges will begin in just over 70 
days. It is important that every American understands how this 
system will work. Testifying before the committee today is J. 
Mark Iwry, Senior Advisor to the Secretary and Deputy Assistant 
Secretary for Retirement and Health Policy at the U.S. 
Department of the Treasury. Welcome, Mr. Iwry. I hope that you 
can provide specific answers to the committee members' 
questions about Treasury's decision and whether we can expect 
additional delays.
    Yesterday the House of Representatives voted to do two 
things. First, the House voted to codify the President's 
ability to delay the employer mandate, and second, it voted to 
offer this same option--the one given to America's businesses--
to American families. Whether or not you agree on this policy, 
as an oversight subcommittee, we need to understand the basis 
for the administration's decisions to delay or postpone the 
Act's requirements. As reports mount that the exchanges and 
states are not prepared to fully implement this law, it seems 
likely that the administration will again find itself in the 
position of wanting to grant additional delays of the law's 
requirements. Examining the basis for these decisions, and how 
they were made, is the job of this subcommittee. That is the 
reason for having this hearing today.

                                #  #  #

    Mr. Burgess. I will submit them.
    Mr. Murphy. He will submit them for the record.
    All right, I now recognize the ranking member for 5 
minutes.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman.
    I am very pleased that we have started having oversight 
hearings on the implementation of the Affordable Care Act. I 
think it is an important role for the committee to play, and I 
also think as we go forward, it would be really constructive 
for us to begin having hearings on not just overall should we 
have the ACA or not, but rather, to drill down into some of the 
particular issues like we did a couple of weeks ago, when we 
did have small businesses come in here to this committee to 
talk to us about some of the challenges that they were facing.
    I wish, though, that we were pursuing some of this 
oversight in a less hyperbolic fashion, as we just heard. 
Frankly, when the Administration announced a couple of weeks 
ago that they were delaying the employer mandate, it took many 
of us on this side of the Aisle by surprise, as well as on your 
side of the Aisle. But frankly, thinking about that panel of 
small businesspeople that we had here, one might argue that the 
Administration was just listening to some businesses about some 
very real issues that they had. Not that I would expect anybody 
on your side of the Aisle to give the Administration any credit 
for that.
    I do think, though, that we should put all of this into 
context, because while this one particular part of the law has 
been delayed for a year, there is a lot more that is going to 
be going on in implementation and a lot that will help the 
American public. I would like to talk a little bit about that.
    First of all, the delay of the employer mandate does not 
impact the 95 percent of large employers that are already 
offering insurance to their employees. Let me say that again. 
Ninety-five percent of large employers are already offering 
coverage to their employees, and that will continue to happen. 
Also, the delay of the employer mandate does not impact the 
millions of low income, uninsured Americans who will be newly 
eligible for the Medicaid program, at least in the states where 
the governors have not turned down the opportunity to provide 
fully funded coverage to their citizens. And the delay won't 
impact the state or federal exchanges, the heart of the health 
care law. Beginning in October, millions of Americans will be 
able to go to the exchanges, shop for the best insurance 
coverage for themselves and their family in a transparent, 
competitive market, and be protected from the worst abuses of 
the insurance industry. They won't have to worry about 
rescissions or denial of coverage if they become ill or 
injured, or if they have a preexisting condition.
    And this is really key when you talk about should we delay 
this for a year for individuals. Those people, people who want 
insurance who can now go to the exchanges and get that 
insurance, will be eligible for billions of dollars in premium 
subsidies and tax credits to help make that health insurance 
affordable. So I would say, why would we delay that for people 
who really want to get affordable insurance, not just in New 
York, but in Pennsylvania and Colorado and all around this 
country?
    The benefits of the law will be real and significant. The 
reports released by the democratic staff show yesterday that in 
Colorado, for example--or I am sorry, in my district, in the 
1st District of Colorado, over 120,000 people who don't have 
health insurance now will have access to quality, affordable 
coverage without fear of discrimination or higher rates. And if 
it wasn't so important, I would have almost had to laugh 
yesterday when the response to the Administration's 
announcement was to vote yet again to repeal the Affordable 
Care Act. The main talking point seemed to be relief, but in 
fact, the public needs to get insurance and it needs to get it 
affordable. I don't think that relief means taking health care 
coverage away from millions of Americans. I don't think that it 
means eliminating billions of dollars in tax credits and 
subsidies. I don't think that it means leaving millions of 
American children and adults with preexisting conditions at the 
tender mercies of the insurance companies. And I don't think 
that it means eliminating or delaying provisions of the law 
that are helping to keep costs under control.
    Now, you can pooh-pooh this article about the rates--the 
premium rates in New York State, and maybe you could if that 
was the only state in which the premiums were going down. But 
in fact, we have seen across the country that as these 
preliminary rates come in, they are lower, and in fact, in some 
cases, the insurance companies are actually asking to rebid in 
the exchanges. And so I think we need to continue to try to 
tune this up. I read an article today when the Republican 
majority passed the Part D Medicare provisions about 10 years 
ago, there was a lot of confusion. All of us worked together to 
make those work. It was rocky at first, but it worked, and now 
over 90 percent of seniors love those protections. That is what 
we should be striving for in a bipartisan way today.
    I want to thank you for having the hearing, but I think we 
need to move on from this, and I yield back. Thank you.
    Mr. Murphy. Gentlelady yields back. Now recognize the 
chairman of the full committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    Yesterday the House voted to give to every American the 
same option the Administration gave to the business community: 
The ability to delay the impact of the health care law on their 
family for a year.
    It is the right thing to do. Individuals, like businesses, 
are subject to reporting requirements, costs, penalties under 
the Affordable Care Act. We believe that individuals left to 
suffer in the looming rate shock deserve the same treatment 
that the Administration awarded to businesses, and I am glad 
the House voted in a bipartisan manner to do it yesterday and I 
hope the Senate will follow.
    As a committee with jurisdiction over this law, and its 
implementation, we have a duty to hold the Administration 
accountable for its decisions and to make sure that they are 
transparent in the process which has sadly been missing 
throughout the writing, passage, and implementation of the 
health care law.
    A great deal of uncertainty surrounds the law. Americans 
don't yet know how much their insurance will cost. Reports 
indicate that the exchanges are behind schedule. Deadlines have 
been delayed and missed entirely.
    Today we are going to hear from Mr. Mark Iwry of the 
Treasury Department on its decision to delay the mandate for 
employers. I hope we will hear the complete story from the 
witness today on how this decision was made, who made it, what 
the record was before Treasury that prompted it to take the 
action 2 weeks ago. Previous hearings before this committee, 
Administration witnesses have looked us square in the eye and 
assured us that the implementation of the Affordable Care Act 
was, in fact, on track. Treasury's decision to delay the 
employer mandate confirms that this is not the case. And 
yesterday we learned the decision was made in June and the 
Administration had been considering the delay ``for a while.'' 
Why did the ``most transparent Administration in history'' 
mislead Congress and try to deceive the public? Because it knew 
that the law perhaps is bad for business and also bad for jobs.
    We now know that the Administration shamelessly waited for 
July 4 fireworks to provide a smokescreen for their employer 
mandate bombshell. So we need to get a full accounting of this 
decision, in the full light of day, so we will be prepared for 
what comes our way once enrollment begins on October 1.
    One other point that I want to make. I see a lot of public 
reports about those that support the Affordable Care Act making 
the comparisons to Part D, the Prescription Drug Program, 
comparisons that show that it is now rated very favorable among 
those people that participate. I would remind my colleagues 
that Part D is still a voluntary, not mandatory, program where 
folks can change their plans literally every year, have dozens 
of choices to make, and yes, there is no financial penalty for 
failure to participate.
    I yield now to Dr. Burgess.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Yesterday the House voted to give to every American the 
same option the administration gave to the business community: 
The ability to delay the impact of the health care law on their 
family for one year.
    This is the right thing to do. Individuals, like 
businesses, are subject to reporting requirements, costs, and 
penalties under the Affordable Care Act. We believe individuals 
left to suffer the looming rate shock deserve the same 
treatment that the administration awarded to businesses. I'm 
glad the House voted in a bipartisan manner to do this 
yesterday and I hope the Senate follows suit.
    As a committee with jurisdiction over this law, and its 
implementation, we have a duty to hold the administration 
accountable for its decisions and to make sure they are 
transparent in the process which has sadly been missing 
throughout the writing, passage, and implementation of the 
health care law.
    A great deal of uncertainty surrounds this law. Americans 
don't yet know how much their insurance will cost. Reports 
indicate that the exchanges are behind schedule. Deadlines have 
been delayed and missed entirely.
    Today we will hear from Mr. Mark Iwry of the Treasury 
Department on its decision to delay the mandate for employers.
    I hope we will hear the complete story from the witness 
today on how this decision was made, who made it, what the 
record was before Treasury that prompted it to take this action 
two weeks ago. In previous hearings before this committee, 
administration witnesses have looked us square in the eye and 
assured us that implementation of the Affordable Care Act was 
on track. Treasury's decision to delay the employer mandate 
confirms that this is not the case.
    And yesterday we learned the decision was made in June and 
the administration had been considering the delay ``for a 
while.'' Why did the ``most transparent administration in 
history'' mislead Congress and try to deceive the public? 
Because it knew that the law is bad for business and bad for 
jobs.
    We now know the administration shamelessly waited for July 
4th fireworks to provide a smokescreen for their employer 
mandate bombshell.
    We need to get a full accounting of this decision, in the 
full light of day, so we can all be prepared for what is coming 
our way once enrollment begins on October 1--or for whatever 
rewrite the administration makes next.
    This is about fairness.

                                  ###

    Mr. Burgess. And I thank the gentleman for yielding.
    It is of concern that on the evening of July 2, this 
provision was suddenly repealed--or delayed. It became 
especially of concern to me after hearing from Administration 
officials here in this subcommittee that they would definitely 
be ready to go with the Affordable Care Act on time and without 
delay.
    The questions are who discussed this delay? Were there 
memos circulating within the departments? Were there secret 
meetings with the White House? When did the Administration 
start thinking about delaying the reporting provisions? And 
what about the individuals that still must comply with the 
mandate to purchase their health care coverage? Do they get a 
delay as well?
    The White House, the Treasury, Health and Human Services 
continue to say all systems are go. No problems here, nothing 
to look at. Move on. But actually, their actions belie their 
words. And unfortunately, it is the American people who will be 
left hanging in the balance.
    If the gentleman from Texas would like time, I will yield 
to Mr. Barton.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Thank you Mr. Chairman,
    Since ACA was signed into law 3 years ago, we have only 
seen the law's failure to deliver on its promises.
    Two weeks ago, the Obama administration announced it would 
delay implementation and reporting requirements for the mandate 
in the Affordable Care Act which requires employers to provide 
insurance or pay a penalty.
    While the Administration attempted to bury their 
announcement in the midst of the July 4th holiday, they have 
only further proved that the President's signature law is not 
ready for primetime.
    This announcement simply adds to a long list of provisions 
in the law that the Administration has delayed or postponed. 
Not to mention the provisions that have been so onerous and 
burdensome for business and consumers that Congress has already 
stepped in and repealed them altogether.
    Not only is the law filled with broken promises, but the 
July 4th announcement directly contradicts statements that 
Administration officials have made before this Committee.
    I have been told, time and time again, by officials from 
the agencies in charge of implementing the Affordable Care Act, 
that it would ``definitely'' be ready to go live on October 1, 
2013.
    So--where was the disconnect?
    When did the Administration start thinking about delaying 
the reporting provisions?
    Who discussed this delay? Were memos circulated within the 
departments? Were there secret meetings with the White House?
    OR--is this just an attempt by the Administration to use 
perverse incentives to boost enrollment in their exchanges?
    Furthermore, within the Administration's embarrassing 
admission of delay, they acknowledge the difficult of getting 
verification systems up and running. So instead, the 
administration will rely on an honor system for reporting.
    So what happens if they get it wrong?
    The Administration has given a break to big business--
allowing them to delay reporting compliance with the law.
    What about the individuals that still must comply with the 
mandate to purchase health coverage? Do they get a delay?
    While the White House, Treasury, and HHS continue to report 
that ``everything is working like it's supposed to'' and ``they 
will definitely be ready'', the American people are left 
hanging in the balance.
    Thank you and I yield back.

    Mr. Barton. Well, I appreciate that.
    My concern is that we have an Obama--presidential 
administration and President Obama that is constitutionally 
required to implement all the laws, and in this case, 
apparently chose to not implement a part of the very law that 
it was so strongly for. So I am going to be asking questions, 
where in the Constitution does it give the President and the 
Treasury Department the ability to choose to implement this 
part of a law but not that part of a law, and if you only going 
to implement part, how can you be expected to implement the 
rest of it?
    I have also got some questions and concerns about this 
decision to allow for self-attestation of income to comply with 
some of the subsidies. Is the Treasury Department now going to 
do away with the W-2 and W-4 forms and let the entire country 
self-attest what our income is for purposes of the income tax 
code? That is another question that I might have, Mr. Chairman, 
but I do appreciate the time and I appreciate the Treasury 
Department being here to participate in this hearing.
    Mr. Murphy. I thank the gentleman. The gentleman's time has 
expired, and now I will go to the ranking member of the full 
committee, Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    The Constitution says a law is something that is passed by 
the Congress and signed by the President. And my colleague just 
talked about the constitutional responsibility of the President 
to uphold the law. What about the constitutional responsibility 
of the Congress to make sure that the laws work?
    I was shocked when we had the debate on the House Floor 
yesterday. A member stood up and said, ``I despise the 
Affordable Care Act.'' What passion. What passion. What is it 
they despise so much? It is the law. If they want to change 
some of it, let's change it. But it just raises real concerns 
about--in my mind about where this Republican party is going. 
It is a state of mind that talks about taking things away from 
people that they desperately want for what purpose? Why should 
a state headed by a Republican governor want to deny their poor 
people 100 percent funding for Medicaid and leave them with no 
coverage at all? You know they have the hospitals and doctors 
say why not cover these people? I don't care. We are going to 
punish them because we want to punish President Obama. But they 
are punishing a lot of people that did nothing to deserve this 
kind of treatment.
    Something has gone fundamentally wrong when a political 
party tries to deny health insurance to millions of American 
families just to advance its narrow partisan interest.
    This law is going to go fully into effect. Millions of 
Americans are already benefitting from its protections. 
Millions more will, for the first time, have access to quality, 
affordable health coverage.
    Yesterday, my staff released a series of reports on the 
benefits of this law in each congressional district in this 
country. I have these reports, Mr. Chairman, for each member of 
this subcommittee, and I would like to ask that they be made 
part of the hearing record. Mr. Chairman?
    Mr. Murphy. Without objection. I understand you have those 
things, I just want to add something, but I will mention it at 
the end of your time.
    Mr. Waxman. Well I have asked unanimous consent.
    Mr. Murphy. Well let me just say I am not going to object 
to the unanimous consent. I do add that I will note that this 
report does not include information about expected costs and 
insurance price increases----
    Mr. Waxman. You can put your critique of it in the record--
--
    Mr. Murphy. No, I just want to ask unanimous consent that 
we can put our Majority staff report from me on the expected 
premium increases.
    Mr. Waxman. I have no problem with that.
    Mr. Murphy. Thank you.
    [The information appears at the conclusion of the hearing.]
    Mr. Waxman. Today, the Department of Health and Human 
Services released a new report finding that in contrast to the 
rate shock predictions from Republicans, health insurance plans 
under the Affordable Care Act will cost 18 percent less than 
predicted. Small businesses can almost save 20 percent over 
what they otherwise would have been paying for coverage. I 
would like to ask that this report also be made part of the 
hearing record. I will reserve that, because----
    Mr. Murphy. Thank you. No, we will give you time because I 
would like to find out what that report is.
    Mr. Waxman. OK. The fact sheets and the HHS report document 
that the incredible amount of good this law is already doing. 
But rather than acknowledging this and trying to improve on any 
flaws, Republicans on this committee and in the House have 
launched an unrelenting effort to destroy the Affordable Care 
Act. Political analyst Chuck Todd said House Republicans are 
``trying to sabotage the law.'' Where does the Constitution say 
that members of Congress are supposed to sabotage a law that 
they didn't vote for?
    USA Today described the actions of Republicans in the 
following way: ``Having lost in Congress and in court, they are 
now using the most cynical of tactics: trying to make the law 
fail. Never mind the public inconvenience and human misery that 
will result.''
    Yesterday, Republicans voted for the 38th time to repeal or 
delay key parts of the health care law. Republican governors 
around the country are refusing to take 100 percent for their 
low income people for Medicaid. The same governors are making 
implementation more difficult by refusing to take the option of 
setting up health exchanges. Republicans in the Congress have 
refused to provide a dime for implementation of this law, and 
now they are attempting to intimidate those who had worked with 
the Administration or the non-profit group Enroll America to 
help educate the public about the new benefits for which they 
are eligible under the Obamacare. And I say that in a positive, 
not a pejorative, way.
    It does not have to be this way. When the Bush 
Administration passed and implemented Medicare Part D, 
Democrats and Republicans made sure the Administration had 
adequate funding to implement the law. I voted against Medicare 
Part D. We could have done a much better job to provide 
prescription drugs. I didn't prevail. The law was passed. We 
worked to spread the word about the new Medicare benefits that 
included a $300 million public relations campaign and a bus 
tour by Administration officials that stopped in 100 cities.
    The goal of this hearing is not to improve the law; the 
goal is to sabotage the law, regardless of the damage inflicted 
on the health care system or the millions of American people 
who, for the first time, will be able to receive affordable 
health insurance coverage. I think that is the wrong approach, 
Mr. Chairman. The Affordable Care Act is providing important 
benefits. I know Republicans said they want to repeal it, and 
then replace it. They have never given us a decent replacement. 
They are not talking about anything constructive----
    Mr. Murphy. I think the gentleman's time is expired.
    Mr. Waxman [continuing]. It is all negative.
    Mr. Murphy. Thank you.
    Mr. Waxman. I yield back the balance of my time.
    Mr. Murphy. I would now like to introduce our witness for 
today's hearing. The Honorable Mark Iwry is a senior advisor to 
the Secretary and Deputy Assistant Secretary for Retirement and 
Health Policy at The United States Department of Treasury. In 
this capacity, he is the reporting authority for the Office of 
the Benefits Tax Counsel and provides advice and counsel to the 
Secretary and the Assistant Secretary regarding tax issues 
related to retirement savings, health care, and employee 
benefits.
    I will now swear in Mr. Iwry. You are aware that this 
committee is holding an investigative hearing, and when doing 
so has had the practice of taking testimony under oath. Do you 
have any objections to testifying under oath?
    Mr. Iwry. No, Mr. Chairman.
    Mr. Murphy. The chair then advises you that under the rules 
of the House and the rules of the committee, you are entitled 
to be advised by counsel. Do you desire to be advised by 
counsel during your testimony today?
    Mr. Iwry. No, sir.
    Mr. Murphy. In that case, if you would please rise and 
raise your right hand? I will swear you in.
    [Witness sworn in.]
    Mr. Murphy. You are now under oath and subject to the 
penalties set forth in Title 18, Section 1001 of the United 
States Code. You may now give a 5-minute summary of your 
written statement.

  TESTIMONY OF J. MARK IWRY, SENIOR ADVISOR TO THE SECRETARY, 
 DEPUTY ASSISTANT SECRETARY FOR RETIREMENT AND HEALTH POLICY, 
                  U.S. DEPARTMENT OF TREASURY

    Mr. Iwry. Thank you, Chairman Murphy, Ranking Member 
DeGette, members of the subcommittee. Good afternoon. I am 
pleased to appear before you today.
    As you know, on July 2, the Treasury Department announced 
that it would provide a 1-year transition relief period for 
2014 with respect to three provisions of the Affordable Care 
Act that the Act added to the internal revenue code.
    First, information reporting requirements for self-insuring 
employers, insurance companies, and other entities that provide 
health coverage. Second, information reporting requirements for 
employers that are subject to the employer shared 
responsibility provisions, and third, the employer shared 
responsibility provisions.
    On July 9, we published formal guidance, Notice 2013-45, 
describing and providing this transition relief. Treasury is 
providing the transition relief after reviewing comments on 
reporting requirements and related discussions, and comments 
with employers and other stakeholders. Employers and their 
representatives requested transition relief for 2014 because of 
concerns about the difficulty or cost of complying with the 
reporting requirements, the desire that reporting be 
simplified, and the lead times necessary to adapt information 
gathering and reporting systems and implement reporting 
effectively.
    We recognize that the vast majority of employers that will 
need to do this reporting already provide health coverage to 
their workers, and we want to make sure employers will be able 
to comply with reporting effectively and efficiently.
    To address these concerns, Treasury announced that 2014, an 
additional year, would be provided before the reporting 
requirements began. This is designed to meet two primary 
concerns raised by stakeholders. First, it allows for an 
additional dialogue and consideration of ways to simplify the 
new reporting process, consistent with effective implementation 
of the law. Second, it gives employers more time, which many 
have requested, to adapt health coverage and reporting systems 
as they move toward making coverage affordable and accessible 
for their employees. Once reporting rules have been issued, 
employers, insurers, other reporting entities are encouraged to 
report voluntarily for 2014. Allowing time for real world 
testing of reporting systems for 2014 will contribute to a 
smoother transition to full implementation in 2015.
    Employer reporting is integral to administration of the 
employer shared responsibility provisions. Because of the 2014 
transition relief, it generally will not be possible for the 
IRS to match up the information from employers with the 
information about individuals claiming a premium tax credit for 
2014. As a result, as further explained in my written 
statement, the transition relief for reporting will make it 
impractical to determine which employers owe shared 
responsibility payments for 2014. Accordingly, we have extended 
the transition relief to the employer shared responsibility 
provisions so that no such payment will be assessed in 2014.
    In preparation, though, for the application of the 
reporting and employer responsibility provisions in 2015, 
employers and others are encouraged to report voluntarily for 
2014 and maintain or expand health coverage in 2014.
    The transition relief provided in this notice is an 
exercise of the Treasury's longstanding administrative 
authority under the tax code. This authority has been used to 
provide transition relief for taxpayers seeking to comply with 
new legislation and to provide a wide range of other guidance. 
In particular, on a number of prior occasions across 
administrations, this authority has been used to postpone the 
application of new legislation when immediate application would 
have subjected taxpayers to unreasonable administrative burdens 
or costs.
    Finally, the transition relief does not affect employees or 
other individuals' access to the premium tax credits available 
beginning in 2014; nor does this transition relief affect the 
effective date of other ACA provisions, including the 
individual responsibility provisions and the insurance market 
reforms.
    While the 2014 transition relief for employer reporting 
would make it impractical to implement the employer 
responsibility provisions, it would not have a comparable 
impact on implementation of the individual responsibility 
provisions, which as a practical matter, are necessary for 
implementing the ACA's insurance market reforms that guarantee 
access to affordable insurance for individuals.
    As you know, the Affordable Care Act is projected to 
provide coverage for tens of millions of Americans. Together 
with the other departments involved, Treasury is implementing 
this Act to build on the progress already made toward better 
and more affordable coverage. We welcome the opportunity to 
further work with the committee to achieve these objectives, 
and I look forward to answering your questions.
    [The prepared statement of Mr. Iwry follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Murphy. Thank you, Mr. Iwry. I will recognize myself 
now for 5 minutes.
    In your public posts in this law and in the information 
submitted to this committee, you claim that you have 
administrative authority to grant relief under the Internal 
Revenue Code. Do you have the ability to utilize this 
transition relief for the individual mandate?
    Mr. Iwry. Mr. Chairman, we have not----
    Mr. Murphy. It is a yes or no.
    Mr. Iwry. Mr. Chairman, we have given a lot of 
consideration to our authority----
    Mr. Murphy. You do have the authority or not?
    Mr. Iwry. We have not considered that question whether we 
would have the authority to provide similar transition relief 
with respect to the individual responsibility.
    Mr. Murphy. Well wait, so is it your position that there 
are limits on the authority that prevent Treasury from delaying 
the individual mandate, and if so, I mean, is there any limits 
at all? Are you able to do anything with the individual 
mandate?
    Mr. Iwry. There certainly are limits, Mr. Chairman, to the 
Treasury's authority to provide this kind of transition relief, 
and the limit----
    Mr. Murphy. Do you have information there about some of the 
burdens and costs involved with the individual mandate or the 
business mandate? Do you have information in front of you that 
you are referring to about some of those burdens and costs for 
businesses and individuals?
    Mr. Iwry. Mr. Chairman, we have considered the burdens----
    Mr. Murphy. Do you have information in front of you on the 
burdens and costs for individuals and businesses? That is a yes 
or no. Do you have information in front of you on the burdens 
and costs--I am going to yield myself more time, because you 
are not answering my question. Do you have information in front 
of you on the burdens and costs for individuals and businesses? 
That is a simple yes or no. I just want to know.
    Mr. Iwry. Yes, qualitative information.
    Mr. Murphy. I would like you to submit that to the 
committee so that both sides have a chance to review that. I am 
going to order that.
    I am going to continue on here. So when you are looking at 
individual costs in business, who looked at this authority for 
Treasury to be able to make this decision that you can waive 
these things for the individual? Who in your department did 
that?
    Mr. Iwry. Mr. Chairman, the Office of Tax Policy----
    Mr. Murphy. Who? Were you involved in those discussions?
    Mr. Iwry. I was only tangentially involved, mainly.
    Mr. Murphy. So communications were related to you about 
those? Communications were made to you about the content of 
those meetings, those discussions?
    Mr. Iwry. That is correct, Mr. Chairman.
    Mr. Murphy. We would like to see the notes, emails, and 
things from those communications, because we would like to find 
out about how this decision was made. Can you provide that for 
the committee?
    Mr. Iwry. I don't recall, Mr. Chairman, that there were--
whether there were written communications about that, but the 
Treasury Office of Tax Policy has for decades----
    Mr. Murphy. We will cover history another time, sir. I want 
you to focus on our questions. Things will go smooth if that 
happens.
    Before the announcement of the delay of the employer 
mandate, did you do an analysis of the constitutionality of the 
delay?
    Mr. Iwry. I did not.
    Mr. Murphy. Did anyone that you communicated with do an 
analysis of constitutionality of the delay? For example, have 
you reviewed any memoranda or participated in any discussions 
at all about the authority to delay these provisions in the 
Affordable Care Act?
    Mr. Iwry. Yes, Mr. Chairman. The----
    Mr. Murphy. What I would like you to do is submit for the 
record information from those discussions.
    I want to ask you, too, as long as we are on the topic of 
waivers. I got a letter here from the International Brotherhood 
of Electrical Workers, the Electrical Workers Union, and it 
says that we cannot afford to sit on the sidelines as this law 
imposes increased benefit costs, fees, and new taxes. If these 
concerns are not addressed, it is likely that the majority of 
multi-employer health plans will dissolve and that 26 million 
covered individuals will lose their plans. They also managed to 
put a full-page ad--I think this was in roll call--also 
addressed these issues to Congress and to the President. This 
begs the question, do you agree that implementation of the 
Affordable Care Act is jeopardizing multi-employer plans and 
the individuals they cover? I might add, Mr. Jimmy Hoffa also 
published something in this, too. Do you agree that multi-
employer plans are in jeopardy here too for these 26 million 
Americans?
    Mr. Iwry. Mr. Chairman, the multi-employer plans are going 
to be able, we believe, to comply with this law in a way that 
does not jeopardize coverage for----
    Mr. Murphy. Well, Jimmy Hoffa from the Teamsters and IBW 
and the National Electrical Contractors Association are saying 
it does not, so will you be reviewing about giving them a 
waiver as well?
    Mr. Iwry. Mr. Chairman, there have been requests----
    Mr. Murphy. Let me ask this. Do you have the authority to 
offer that waiver?
    Mr. Iwry. We have not--what sort of waiver are you 
referring to, Mr. Chairman, if I may ask?
    Mr. Murphy. The kind of waivers you have been offering 
other people. The kind of waivers you are offering other 
people. I just want to know. I would like an answer to this 
question, without being desultory here. So if they like the 
coverage 26 million Americans have through the unions, can they 
keep it? Do you have the authority to waive that?
    Mr. Iwry. Mr. Chairman, the coverage that members of the 
plans sponsored by the multi-employer unions have is coverage 
that they can keep.
    Mr. Murphy. Mr. Iwry, Jimmy Hoffa, the Teamsters, IBW, and 
other groups are saying they do not, and I would like you to 
submit an answer for the record of A) if you have the authority 
to offer them waivers, and B) what they will be. I know I am 
over time here, but I am sure the members will follow up. I 
yield to Ms. DeGette for 5 minutes.
    Ms. DeGette. Now Mr. Iwry, the Treasury delayed the 
employer mandate, is that correct, by 1 year, correct?
    Mr. Iwry. Ms. DeGette, the Treasury provided transition 
relief with respect to the----
    Ms. DeGette. And delayed the----
    Mr. Iwry [continuing]. Employer responsibilities.
    Ms. DeGette. Correct?
    Mr. Iwry. Correct.
    Ms. DeGette. And what section of the Internal Revenue Code 
did they do that under?
    Mr. Iwry. The transition relief is an exercise of the 
Treasury Department's administrative authority under Section 
7805(a).
    Ms. DeGette. And what exactly does Section 7508--I am 
sorry, 7805(a) say?
    Mr. Iwry. Section 7805(a) of the Internal Revenue Code 
provides that the Secretary shall prescribe all needful rules 
and regulations for the enforcement of this title, including 
all rules and regulations as may be necessary by reason of any 
alteration of law in relation to internal revenue.
    Now what that means in this context, Congresswoman, is not 
that it gives Treasury authority to ignore the statute or parts 
of the statute, but rather that it allows us to implement the 
law more effectively, specifically----
    Ms. DeGette. OK, let me stop you right there, and let me 
ask you, to your knowledge, does Treasury intend to take any 
other steps under Section 7805(a) to delay any other provisions 
of the Affordable Healthcare Act? Are you contemplating using 
what you view your authority under the Act to delay any other 
provisions of the ACA? I think that is what the chairman was 
trying to get at.
    Mr. Iwry. Congresswoman, we do not have--first of all, let 
me make clear, this transition relief does not have any impact 
on any other----
    Ms. DeGette. That is correct.
    Mr. Iwry [continuing]. Expected date----
    Ms. DeGette. Is it the intention of the Agency----
    Mr. Iwry [continuing]. Under the Act.
    Ms. DeGette [continuing]. To use Section 7805(a) to delay 
any other provisions of the ACA? That is a pretty easy 
question.
    Mr. Iwry. Right. Consistent with our normal process in 
implementing new legislation----
    Ms. DeGette. Yes.
    Mr. Iwry [continuing]. We will evaluate the need for any 
other possible transition relief on a case-by-case basis if 
there is a reason sufficiently compelling circumstances to----
    Ms. DeGette. To your knowledge, does the Agency intend--at 
this point, do you know of any other delays?
    Mr. Iwry. We don't have any specific provision that we have 
identified for which we would----
    Ms. DeGette. Thank you. And if further requests come in, 
you will evaluate those? That is what you are trying to tell 
me?
    Mr. Iwry. I am sorry?
    Ms. DeGette. If further requests come in like came in from 
the business community, what you are saying is you will 
evaluate those within the Agency's authority. Is that correct?
    Mr. Iwry. That is correct.
    Ms. DeGette. OK. Now has Treasury ever used this authority 
before to delay or modify other tax rules?
    Mr. Iwry. Yes, Congresswoman----
    Ms. DeGette. Could you describe maybe one or two examples, 
very briefly?
    Mr. Iwry. Yes. Treasury has traditionally interpreted this 
authority to allow implementation of statutes in a manner that 
is best designed to give effect to their terms, including 
transition relief, as appropriate in connection with situations 
where the law has changed.
    Ms. DeGette. OK, do you have an example of that?
    Mr. Iwry. Right. My written testimony contains a whole 
series of specific examples, as you suggest, Congresswoman, in 
the tax law. Let me mention one or two of them here.
    Ms. DeGette. How about one? We have got 53 seconds left.
    Mr. Iwry. Sure.
    Ms. DeGette. Thank you.
    Mr. Iwry. Basis reporting rules for investment securities 
were enacted in 2008. Treasury and IRS issued proposed 
regulations on those for debt instruments and options. The 
statutory effective date was January 1, 2013, as reflected in 
the regulations, and after numerous comments from taxpayers 
that this proposed effective date did not give them enough time 
to program their information systems, Treasury and the IRS 
issued a notice postponing the effective date to January 1, 
2014.
    Ms. DeGette. OK. Let me ask you a question, because I am 
running out of time. So I know you think the authority is 
clear. You are saying that you could do it here. You are going 
to look at any other situations that come up, but you know, we 
have institutional prerogatives, too, and when we write a law, 
we expect that it will go into effect. I can't tell whether my 
friends on the other side of the Aisle object to this delay or 
think everything else should be delayed, but what I am hearing 
you say is it is not the intention of your agency to 
indefinitely delay this mandate or to ignore it completely or 
to do this wholesale with the rest of the ACA, is that correct?
    Mr. Iwry. That is----
    Ms. DeGette. Yes or no would be good, since I am out of 
time.
    Mr. Iwry. That is correct.
    Ms. DeGette. Thank you very much.
    Mr. Murphy. And the gentlelady's time is expired. Now 
recognize the vice chair of the committee--full chair of the 
committee Mr. Upton is not here, so we will go to Ms. 
Blackburn, vice chair, for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman, and Mr. Iwry, 
thank you so much--I am over here--for your time to be with us. 
I want to go right back to what the chairman of the full 
committee--the subcommittee was talking with you about is where 
you got this authority and what you think gives you this 
authority. So this is a really simple yes or no. Does Treasury 
have the authority to delay the individual mandate under the 
healthcare law? Yes or no?
    Mr. Iwry. Congresswoman, as I mentioned, Treasury has not 
yet had occasion to consider whether it would have authority to 
delay or to give transition relief with respect to individual--
--
    Mrs. Blackburn. So your presumptiveness on the request from 
the business community that this thing is half-baked and not 
ready for primetime, you chose to delay the employer mandate. 
So what you are saying is you do not know if you do or do not 
have authority to delay the individual mandate?
    Mr. Iwry. Congresswoman, we have not had occasion because 
we have not found that the individual mandate presented the 
kinds of administrative difficulties for individuals----
    Mrs. Blackburn. Well let me just interject right here, 
because we can show you plenty of surveys and evidence that it 
is causing tremendous disruption in the healthcare community 
and in the individual health insurance marketplace.
    I will try this another way. Why is it possible to delay 
the requirements on business but not on individuals?
    Mr. Iwry. Congresswoman, when we considered whether to 
provide this transition relief, we were motivated by the 
concerns that were raised with us and with Congress by those 
who would be providing coverage and continuing to provide 
coverage that the reporting requirements under the employer 
responsibility conditions----
    Mrs. Blackburn. So then what you are telling me is that 
this is too cumbersome for our business community to comply 
with? Would that be a statement that matched what you found? It 
is too cumbersome?
    Mr. Iwry. Congresswoman, what we found was that the 
business concerns----
    Mrs. Blackburn. OK, you are running the time----
    Mr. Iwry. That they needed more time.
    Mrs. Blackburn. Yes, well, you are running my time out. You 
are running my time out by trying to talk as slow as I talk and 
I don't appreciate it, quite frankly.
    Let me tell you what I am finding, and it shows that you 
have great sympathy for big business and that you are trying to 
cater to big business, but not to hardworking taxpayers and 
small business people that are fighting every single day 
against this law. Because it is redefining--I tell you, I agree 
with what the unions wrote to the Democrat leadership. This is 
redefining the 40-hour work week in this country, and I think 
you agree with that because of the actions that you took. It is 
redefining what benefits are for individuals. This is wrecking 
what employers are providing for individuals because you all 
want to put this out there that is going to destroy the 
healthcare marketplace and destroy the doctor-patient 
relationship. And you are saying--you are making this that you 
are motivated by concerns. Well let me tell you what concerns I 
am motivated by, and it is men and women who are going to work 
every single day and are seeking to do the best for their 
families. They want the ability to make these decisions. They 
do not trust bureaucrats in Washington, D.C. to make these 
decisions, and quite frankly, I don't think they appreciate 
some of the attitudes when you come in and you are unprepared 
and unwilling to answer a simple yes or no. What gives you the 
authority and do you have the authority, and if you do have the 
authority or think you do, and you think it was a 
constitutional act, then for heaven's sake, why would you favor 
big business and then vote against hardworking men and women 
with the actions that you took?
    I yield back.
    Mr. Murphy. Gentlelady yields back. Recognize the 
gentlelady from Florida, Ms. Castor, for 5 minutes.
    Ms. Castor. Well thank you, Mr. Chairman.
    Boy, I have a different view. I think the Affordable Care 
Act is working for families and it is certainly working for 
small businesses, and we have a ways to go. So I would hope 
that now that it is law, the Supreme Court has ruled. We are 
moving into significant areas of implementation. We can begin 
to all work together to ensure that it works for families 
across America and on all businesses, small and large.
    I would like to highlight what Chairman Waxman said early 
on. There are some new statistics out, and it is helpful 
because they are broken down by congressional district, that 
demonstrates how the law is helping families. And just a few 
great statistics from my own community--and keep in mind that a 
congressional district, the population now is estimated to be 
about 700,000. So what I learned yesterday is in my own 
congressional district, under the Affordable Care Act, almost 
10,000 young adults in my district now have health insurance 
because they have been able to stay on their parents' plan. 
Almost 6,000 seniors in my district have received prescription 
drug discounts worth $8.2 million. That is an average of $610 
per person in 2011, $690 in 2012, and $840 in 2013. You better 
believe my seniors can use a few extra dollars in their 
pockets. My Medicare neighbors, they now have access to free 
preventative services that they didn't have before without 
paying a co-pay. Children are no longer barred from getting 
insurance because they have a preexisting condition, like 
childhood cancer or asthma. These are very important consumer 
protections that the ACA has provided. And now the rebates are 
coming in. We expect another round of rebates. In the entire 
Tampa Bay area alone so far, my families have gotten $47 
million back from insurance companies. And then the President 
announced that the White House says that there is another round 
coming this summer. We anticipate in the State of Florida alone 
we are--consumers, families are going to get back another $54 
million, because under the law, we say most of the co-pays and 
premiums that people work hard to pay will go to actual 
healthcare and not to exorbitant salaries or profits. So this 
is good news and I hope we can all work together.
    Now Mr. Iwry, thank you for being here. I want to ask you 
about the extent to which the decision to implement a business 
transition relief period to those--some of those businesses is 
going to work. Now as of today, most large employers in America 
already offer coverage to their employees, correct?
    Mr. Iwry. Congresswoman, the vast majority of larger 
employers already offer coverage.
    Ms. Castor. In fact, it is about 160 million Americans 
today already receive health insurance through their employers. 
And when we talk about the larger employers, we are talking 
about employers that have 50 or more employees, is that 
correct?
    Mr. Iwry. For this purpose, yes, Congresswoman.
    Ms. Castor. And I know this might not be your area of 
expertise, but why do employers, why do businesses provide 
health insurance to their employees?
    Mr. Iwry. Congresswoman----
    Ms. Castor. Kind of the way the unique American health 
system has grown up over the decades. Your health insurance is 
tied to your job, but why do businesses provide health 
insurance?
    Mr. Iwry. Congresswoman, I think there are several reasons. 
One is that businesses find that offering important key 
benefits like health insurance makes it easier to recruit 
valuable employees.
    Ms. Castor. I think that is right. I think if you were--if 
you had two jobs in front of you and you had one that offered 
health coverage for you or your family, and the other that did 
not, that makes it more attractive to go work for that 
employer, and that is why over time most employers do that. It 
gives them an advantage.
    Now is there anything in your purview that changes the 
calculus here for the way that works?
    Mr. Iwry. Well that is, of course, still the case as well 
as to retain valued employees as they grow older, and----
    Ms. Castor. Right.
    Mr. Iwry [continuing]. Prior to this----
    Ms. Castor. And nothing changes that. Now there is another 
part of the ACA--and I take umbrage at what my colleague from 
Tennessee said--this law is going to provide substantial tax 
credits to our small businesses at home. In fact, over 360,000 
small businesses across America have already taken advantage of 
those new tax credits. We anticipate this to grow. Mr. Iwry, 
did Treasury's recent decision impact the small business tax 
credits provided under the ACA?
    Mr. Iwry. Congresswoman, it did not impact the small 
business tax credits or the premium tax credits worth several 
hundred billion dollars for individuals, which are central to 
the whole legislation here, nor did it affect the marketplaces.
    Mr. Murphy. Thank you. Gentlelady's time is expired. Now 
recognize the chairman emeritus of the committee, Mr. Barton, 
for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. On July the 9th, the 
Assistant Secretary for Tax Policy, Mark Mazur, replied to a 
letter that myself and I think almost every Republican on this 
subcommittee had sent to the Treasury Secretary, asking for--
why this particular part of the law was delayed and what the 
authority was from it. In that letter, on page two, it says 
that the legal authority to delay was based on the 
administrative authority under Section 7805(a) of the Internal 
Revenue Code. Well, I have Section 7805(a) of the Code, and I 
am not an attorney, nor am I a tax expert, but what Section 
7805 of the Revenue Code says is that unless explicitly 
authorized somewhere else so that some other official has the 
authority, the Secretary of the Treasury shall prescribe all 
needful rules and regulations for the enforcement of this 
title, including all rules and regulations as may be necessary 
by reason or any alteration of the law in relation to Internal 
Revenue. It says nothing about giving authority to not 
implement, and in the Affordable Care Act, as Congresswoman 
Blackburn pointed out, there is not an opt-out clause. There is 
not a you shall do this unless you decide it can't be 
implemented, in this case, you can delay. The law was passed on 
March 23 or signed into law on March 23, 2010. That is over 3 
years ago. So we are now getting to the point where you 
actually have to implement it, and lo and behold, the Secretary 
of the Treasury has decided to pick and choose which parts of 
the law to implement. Other than this Section 7805, is there 
any other authority anywhere else that gives the Secretary of 
the Treasury, and I would assume in consultation with the 
President of the United States, to pick and choose which parts 
of which laws that he or she implements?
    Mr. Iwry. Mr. Chairman, Section 7805(a) is, in our view, 
sufficient authority and in the view of previous Treasury 
Departments across various administrations, to, in an 
appropriate case, implement statutes in a way that is best 
designed to give effect to their terms, including providing 
transition relief, as appropriate when there is what the 
provision refers to an alteration of the law----
    Mr. Barton. Well, 3 \1/2\ years from the law's passage, it 
is pretty weak to say this is transition relief. And it is 
explicit in the law that it shall be implemented in the 
Affordable Care Act, and it is explicit in this Section 7805 
that you are supposed to prescribe--the Secretary, that is--
needful rules and regulations for the enforcement, not for the 
non-enforcement. I am not an attorney but I don't believe you 
have got the legal authority, the Secretary of the Treasury, to 
do what you all just did.
    I do have a question. This decision to delay 
implementation, was it done in consultation with the White 
House, upon the direction of the White House, or without any 
input from the White House?
    Mr. Iwry. Mr. Chairman, it was--this decision to provide 
transition relief with respect to the reporting provisions for 
employers----
    Mr. Barton. To delay implementation, I don't consider that 
transition relief. The decision to not implement one of the key 
components of the Affordable Care Act, did the Secretary of the 
Treasury, with advice from people like you who are senior 
advisors to the Secretary, did you all do this on your own or 
did you do it at the direction and consultation or with input 
from the White House?
    Mr. Iwry. Mr. Chairman, the Treasury Department did not do 
this without coordination with the White House. It was not at 
the direction, but it was with----
    Mr. Barton. So the President knew about this?
    Mr. Iwry [continuing]. Coordination and consultation----
    Mr. Barton. The President knew about this before it was 
announced?
    Mr. Iwry. Mr. Chairman, I don't personally have a basis for 
knowing what the President knew at what point in time, but 
certainly to answer your question fairly, the White House was 
involved. The Treasury kept----
    Mr. Barton. Normally intelligent people can assume the 
President knew about this before the fact, was friendly towards 
it, probably, I would assume, directed it, but at least was 
strongly supportive of it. It wasn't done against his 
opposition.
    Mr. Iwry. Mr. Chairman, I have no reason to think that it 
was or would have been done had he been opposed to it.
    Mr. Barton. My time is expired. I appreciate your candor. I 
will yield back.
    Mr. Murphy. Gentleman's time is expired. Now to the 
gentleman from North Carolina, Mr. Butterfield, for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman, and 
thank you for your testimony today. You know, Mr. Barton, I 
would stipulate that the President was aware of this change in 
policy, and he would be derelict if he was not aware of the 
change. And so I certainly believe that he was, and thank him 
for making this important administrative decision.
    The President's decision to delay the employer mandate I 
think has gotten too much attention. I think we need to be 
using this energy and this time to try to find ways to make the 
Affordable Care Act work, and I am trying to listen very 
carefully at the debate today to try to figure out if my 
friends on the other side of the Aisle feel that the employer 
responsibility delay should be repealed or whether the 
individual mandate should be delayed. I can't quite figure out 
where you are going with this. I have always looked at you as 
my friends over on the other side as being friends of business, 
and now today you seem to be really championing the rights of 
individuals. I am glad to see that progress. I wish you would 
join me in North Carolina to try to champion individuals who 
are poor people in North Carolina who are not going to be able 
to benefit from the Medicaid expansion. And so I just want to 
talk about the business aspect of this and try to get some 
answers on the record.
    Sir, correct me if I am wrong. Firms with fewer than 50 
full-time equivalent employees are not subject to the employer 
responsibility provisions of the Act. Is that correct?
    Mr. Iwry. Congressman, firms with fewer than 50 full-time 
employees or full-time equivalent employees----
    Mr. Butterfield. It doesn't apply to them at all.
    Mr. Iwry [continuing]. Are not subject to the employer 
responsibility provisions of the Act.
    Mr. Butterfield. Now or in the future, the foreseeable 
future, is that right?
    Mr. Iwry. The statute, Congressman, does not provide at all 
for businesses smaller than 50 to be subject to that 
requirement.
    Mr. Butterfield. Am I correct, then, that the vast majority 
of U.S. businesses have fewer than 50 employees? That is the 
impression that I get.
    Mr. Iwry. Congressman, it is generally been estimated that 
roughly 95 percent of employers in the United States would be 
below that threshold.
    Mr. Butterfield. Well, am I correct that the vast majority 
of employers with more than 50 full-time employees already 
offer coverage to their employees?
    Mr. Iwry. Congressman, that is also correct. Roughly a 
similar percentage that is about 95 percent of employers above 
50 in size have been estimated--it has been estimated that 
those employers do provide coverage currently to their 
employees.
    Mr. Butterfield. The number of businesses that we are 
talking about seems to be getting smaller and smaller and 
smaller. So many of the employers that would have been affected 
by the employer mandate already offer coverage that meets the 
standards in the law. So what we are really talking about is a 
limited--a very limited number of companies that are affected 
by the mandate and the delay. And so for all the sound and fury 
over the mandate delay, the core of the law remains reform of 
the individual insurance market. That is what this thing is all 
about. Where people buy coverage when they do not get it 
through their jobs, and I can tell you, I represent a district 
in North Carolina. I don't know about my friends who are in 
other seats in this committee, but the vast majority of the 
people that I represent are ready for implementation, full 
implementation of the Affordable Care Act.
    And so I want to thank you, sir, for your testimony today. 
I think my friend on the other side who criticized your method 
of speaking owes you an apology, because your response to my 
questions was equal in tone and pace and cadence as it was to 
the other members of this committee. I think without knowing 
your personality and knowing the way you express yourself that 
you are owed an apology. I yield back.
    Mr. Murphy. Gentleman yields back. I now recognize the 
gentleman from Texas, Mr. Burgess, for 5 minutes.
    Mr. Burgess. Thank you, Mr. Iwry. Thank you for being here.
    I want to pick up where Mr. Barton left off. I have got 
about three areas that I want to cover, so I apologize if it 
seems like we are going to go fast. And then I have got some 
other questions I am going to submit for a written response.
    When did you know that the mandate for the businesses was 
going to be delayed? That is not a yes or no question, but it 
is a calendar day. When did you know?
    Mr. Iwry. Mr. Burgess, I knew that this transition relief 
would be granted sometime last month, the month of June.
    Mr. Burgess. June 25, June 27? Do you have a date? Would 
there be a meeting that took place? Would there be a phone 
call? Would there be a record of some type that you could 
provide to this committee?
    Mr. Iwry. Congressman, I don't recall any specific meeting 
or phone call.
    Mr. Burgess. May I ask that you look at your logs and your 
records and see if you can refresh your memory and provide that 
to the staff of this committee?
    Let's move on, because I got a lot of stuff to do and we 
have already discussed how slow I talk. Who made the decision 
to delay the employer mandate? Was that made exclusively at 
Treasury, Health and Human Services? Did they have any role at 
all, or was it also the White House that was involved? You told 
Mr. Barton that the White House was aware. Were they actually 
involved, actively involved in the decision-making process?
    Mr. Iwry. Congressman, policy decisions under this 
legislation, in particular under the Affordable Care Act, 
policy decisions generally that are made by the Treasury 
Department are coordinated with the White House----
    Mr. Burgess. So who did you talk to? Who did you discuss 
this with? Who did you coordinate with in the White House?
    Mr. Iwry. I was not--Congressman, I was not privy to all 
the conversations.
    Mr. Burgess. Well let me just ask you a question. This was 
odd the way this happened at 6:00 p.m. Eastern time on July the 
2nd. I think it caught a lot of us by surprise. Valerie Jarrett 
put it out in a blog post. Was there any discussion with you 
and Valerie Jarrett prior to her posting this on the blog site?
    Mr. Iwry. Congressman, I don't recall having had any 
discussion with Ms. Jarrett about this, and indeed, I am a 
policy person, not someone who deals with communications or 
media relations, or congressional relations, so----
    Mr. Burgess. But sir, this was a big deal and it was rolled 
out at an odd time. Once again, will you review your logs and 
your email? Were you copied on any email or was Valerie Jarrett 
copied on any email to you? Can you provide that to this 
committee, because I think it is important to our understanding 
of this process.
    Mr. Iwry. Congressman, I am not the person at Treasury to 
respond to the question----
    Mr. Burgess. Well then who is that?
    Mr. Iwry [continuing]. What we can--sorry.
    Mr. Burgess. Well fine. We can subpoena all of your records 
if that is what you would prefer.
    Mr. Iwry. Congressman, we are happy to cooperate with the 
committee.
    Mr. Burgess. Thank you.
    Mr. Iwry. And I will refer this to the people at Treasury 
who would be dealing with this.
    Mr. Burgess. Thank you. The reason this is important is we 
had Secretary Sebelius and Mr. Cohen from Center for 
Communications Insurance Oversight here at this committee at 
the very end of April. From them, no delay, we will be ready, 
it will be on time. I specifically asked Mr. Cohen about 
contingency plans. I specifically asked Mr. Cohen are you 
planning on any delay? Are you planning on narrowing the scope 
of what is provided, and even after I reminded him that he was 
under oath, he replied no. So somehow between April 30 and June 
25, that all changed in a big way. And what we are trying to 
understand in this committee is how did that happen? What was 
the process? What was the trigger that occurred that caused 
such a massive change from no delay, we will be ready, to wait 
a year. Do you understand the concern?
    Mr. Iwry. Congressman, I understand your question, yes, and 
I would be happy to try to address that now, if I might.
    Mr. Burgess. Well let me ask you this. What does a deadline 
mean? Are you aware of the phrase ``deadline''?
    Mr. Iwry. Congressman, we try our best at the Treasury 
Department to comply with the statutory timeframes and 
deadlines. We had a request here from--many requests from the 
plan sponsor committee----
    Mr. Burgess. Well let me ask you this. I mean, a lot of 
times we are accused of writing gobbledygook in our laws, but 
this is pretty straightforward. The amendments made in this 
section shall apply to the months beginning after December 31, 
2013. That is pretty clear, isn't it?
    Mr. Murphy. Gentleman's time is expired.
    Mr. Burgess. And it sounds like a deadline, and I would 
appreciate a response from your office in writing what deadline 
means to you and your office. I will yield back.
    Mr. Murphy. Gentleman's time is expired. Now recognize the 
gentleman from New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Mr. Iwry, before I ask you some questions, I just wanted to 
highlight some of the profile in my congressional district with 
the ACA. I have more than 12,000 seniors in the district 
receiving prescription drug discounts worth some $16 million, 
an average discount of $610 per person in 2011, and $650 in 
2012, and some 124,000 seniors in the district now eligible for 
Medicare preventative services without paying any co-pays, co-
insurance, or deductible. And up to 27,000 children in the 
district with preexisting health conditions no longer being 
denied coverage by health insurers. And I just wanted to 
highlight that for the record, because it is part of the 
strength of the ACA.
    Again, Mr. Iwry, one concern raised by critics of the 
Treasury decision is that it will impact the verification 
process for individuals on the exchanges. I want to read you a 
quote from Uval Levin, a conservative critic of the law, and he 
says, and I quote, ``The most serious problem for the 
Administration with this delay of the employer mandate is the 
effect on the liability of the exchanges. Under the law, 
eligibility for exchange subsidies depends on an individual not 
receiving an affordable offer of qualified insurance from an 
employer. If employers will now not be required to report on 
their insurance offerings in 2014, I don't see how the 
government will be able to determine eligibility for subsidies 
and therefore how the exchanges will be able to function.''
    Mr. Iwry, is this a legitimate concern?
    Mr. Iwry. Congressman, the impact of the transition relief 
with respect to employer and insurer reporting on the 
functioning of the marketplaces and the ability to verify is 
something that was considered carefully as part of the 
decision-making process, together with many other factors, 
including the potential impacts of the decision on coverage and 
cost. And the conclusion was that the administration of the 
individual responsibility provisions could go forward without 
being unduly hampered by the lack of employer reporting partly 
for a year, except to the extent employers report voluntarily, 
which they are encouraged to do. Partly because the individual 
in going to the exchange would receive an employer form that 
provides information about their coverage, the individual would 
normally know during the open season with the employer through 
the summary of benefits and coverage that employers would be 
providing to employees, whether they had coverage or not, and 
therefore would be able to go to the exchange and know whether 
they are potentially entitled to apply for a premium tax credit 
at the exchange if their income otherwise permits. So the 
individual has the wherewithal to apply, determine whether he 
or she is entitled to apply for a premium tax credit to help 
them pay for this coverage, regardless of that employer report, 
and indeed, the employer report is something that the exchange 
provides to ultimately--information about employer coverage is 
something that the exchange also provides to the IRS when the 
IRS then does a second check of the individual's eligibility 
for the tax credit on reconciliation, after the individual 
files the return. The IRS gets information from the exchange 
about what the employer provided as a result of what the 
employer provides, information the employer reports to the 
individual. The individual can fill out their 1040, knowing 
whether they have coverage or not, knowing whether they are 
exempt from individual responsibility or not, and in the very 
few cases, the small percentage of cases where a person is 
expected to owe a payment, they will have the tools on their 
1040 to make the payment.
    Mr. Tonko. Thank you. Thank you very much for the 
clarification, and with that, I yield back.
    Mr. Murphy. Gentleman's time is expired, and I now 
recognize the gentleman from Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the chair, and I thank Mr. Iwry for 
appearing to explain how the Administration decided to delay 
Obamacare's employer mandate.
    I didn't think it was possible, sir, but the 
Administration's actions created more uncertainty back home in 
Texas 22 over Obamacare's impacts on their families and 
businesses. The employer mandate was a low murmur compared to 
the full repeal war I heard after March 23 of 2010 when 
Obamacare was passed, but that changed when the employer 
mandate was delayed. That became a full-on war back home in 
Texas 22. And that war is locked on two questions. One, how can 
I plan for the future prosperity of my family? How can I plan 
for the future prosperity of my business? The second question, 
what change is coming next?
    Sir, under the Constitution of the United States, it is my 
job, my sacred duty to get answers to those questions for these 
700,000 people, Texans who live in Texas 22. Sir, I need, I 
demand the cooperation to get those answers.
    And now the facts. It seems this delay was ready for 
primetime by June 24 of this year. I say that because CMS 
Administrator Marilyn Tavenner testified yesterday that she was 
made aware of the delayed employer mandate that was being 
considered on June 24 of this year. Yesterday. In your 
testimony in front of the Ways and Means Subcommittee and right 
here just about 10 minutes ago, you stated that Treasury's 
final decision to postpone the Affordable Care Act's employer 
mandate was made ``sometime in June.'' It was considered in a 
very careful way for a while. My question, sir, who in Treasury 
took part in the careful consideration in the month of June? I 
need names and positions, please.
    Mr. Iwry. Congressman, would you like me to start with your 
last question or your first one?
    Mr. Olson. I need names and positions to my question. Who 
took part in this careful consideration in the month of June? 
Names and positions, please.
    Mr. Iwry. Congressman, the authority to make a tax policy 
regulatory decision resides in the Assistant Secretary--this is 
the position--the Assistant Secretary for Tax Policy within the 
Department----
    Mr. Olson. Names, please, sir. Names and positions, please. 
That is all I am asking. I worked in the Senate for 8 years. I 
know what a filibuster looks like. Please, names and positions. 
Please help me. I have a duty to 700,000 people to get these 
answers.
    Mr. Iwry. Congressman, respectfully I am trying to answer 
your question fully. So the position is the Assistant Secretary 
for Tax Policy, and that authority is delegated to the 
Assistant Secretary by the Secretary of the Treasury. The name 
of the individual who is Assistant Secretary for Tax Policy is 
Mark Mazur. He is the author of that blog post.
    Mr. Olson. OK, got that from Chairman Barton before, 
Chairman Emeritus Barton.
    One more question, sir. Your lack of details doesn't 
support your repeated considerations that you had careful 
considerations, your repeated contentions. As you might have 
done some research on my life, I am a former Naval--U.S. Naval 
aviator. Careful, to me, means knowing that your plane, your 
route of flight, and the obstacles en route. If Treasury's 
actions were applied to flying aircraft, you would have been on 
autopilot, asleep for over 3 years, only waking up when the 
collision avoidance system is going pull up, pull up, pull up. 
You pulled up, woke up, and avoided crashing the plane.
    I will give you one more chance to help me out, sir. 
Considering that at least seven components of the Affordable 
Care Act, the class act, the 1009, small business changes, 
mandate employers, data hub, income verification, employer 
insurance verification, have been repealed late in the past 3 
years, what is coming in the future? Anything that Treasury is 
looking at that I can tell my people back home, get ready for 
this?
    Mr. Iwry. Congressman, we are continuing to implement the 
Affordable Care Act, and we have no specific provision at 
Treasury that I am aware of in mind that would call for, in our 
view, further transition relief. However, if it does develop 
that there is a legitimate need and one that is within our 
authority, which we take seriously, sir, and we very much begin 
with respect for the law and for the statute that Congress 
passed and the language of the statute, but if we need to 
exercise the longstanding authority which has been exercised 
across different Administrations under the 7805(a) section of 
the Tax Code, with respect to another provision of the tax law, 
we would do that. There are many examples in the past where 
that has been done----
    Mr. Murphy. Gentleman's time is expired.
    Mr. Olson. My interpretation of your comments, sir, is we 
can expect a Labor Day, a Halloween, or Thanksgiving, or 
Christmas surprise again. I yield back the balance of my time.
    Mr. Murphy. Gentleman's time is expired. Now recognize Mr. 
Green of Texas for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Welcome, Mr. Iwry. The 
issue of the delay of the employer mandate, I think, has been 
bogged down and whether the Department of Treasury had the 
authority to do so. Transitional relief is not objectionable. 
Has the authority to provide transition relief been used by 
other Administrations in the past?
    Mr. Iwry. Congressman, the authority that I have referred 
to under Section 7805(a) of the Tax Code to provide 
interpretations and in this case, transition relief, with 
respect to Tax Code provisions has been used in the past on a 
whole number of occasions. Information reporting is a 
particular area where transition relief has been found to be 
necessary on prior occasions, and the decisions to provide 
transition relief on occasion have been made, to my knowledge, 
in the exercise of the professional, legal judgment of the 
Treasury Department, without regard to political affiliation 
across different Administrations. There is a tradition at 
Treasury of very professional and serious dedication to the law 
and respect for the law and respect for tax policy, and there 
is an effort made consistently to keep that up, regardless of 
what Administration is in office.
    Mr. Green. OK, and so this has been used by other 
Administrations----
    Mr. Iwry. Correct.
    Mr. Green [continuing]. In Department of Treasury and other 
Administrations. The bigger issue for me is what the future 
holds for the law that is so important to so many Americans. I 
know that we are how few people will be affected by this delay, 
however, I represent a very urban district in Houston. 
Currently our district has the highest percentage of people who 
have jobs, but no health insurance, either through their job or 
because they make too much to be qualified for Medicaid. And of 
course, our State of Texas unfortunately is not expanding 
Medicaid. So this delay deals my constituents a hard blow.
    The other issue, anyone who is employed and makes between 
100 and 130 percent of the federal poverty rate and doesn't 
have insurance through their job still cannot afford it because 
their employers aren't required to provide it, and they won't 
receive the subsidies to purchase coverage through the 
exchange. Do you think there is some way that Treasury could 
look at that and maybe have a transition so those folks who are 
left waiting for that mandate for their employers, is there 
some way the Administration can deal with that, to where those 
people who are not qualified now because that would be able to 
have some type of transition purchase coverage with the 
subsidies through the exchange? That may not be your area. 
Probably not. Treasury is your jurisdiction, but that is one of 
the concerns. What are we going to do with these folks because 
of this decision their employers are not covering them? This 
delay creates significant uncertainty about the time and the 
implementation of the rest of the Affordable Care Act, and I 
have a number of questions that should require simply very 
short answers. Can you provide the necessary certainty to this 
committee, to the employers, and employees that in 2015 the 
employer mandate will not be delayed again?
    Mr. Iwry. Congressman, this transition relief is a 1-year 
grant of transition relief for 2014. There is every intention 
to have the implementation of these specific provisions go into 
effect at the beginning of 2015 of the expressed terms----
    Mr. Green. OK. I only have about 40 seconds. Do you know if 
the Treasury is preparing to delay the implementation of any 
other provisions of the Affordable Care Act within its 
jurisdiction?
    Mr. Iwry. Congressman, as I have said, the administrative 
authority that we have used to provide transition relief for 
these employer provisions is authority that could, in 
appropriate cases, potentially be used as it has been in the 
past with respect to other provisions, but as we implement--
continue to complete the implementation of the Affordable Care 
Act, we don't currently have on our radar screen any particular 
provision----
    Mr. Green. OK. Well one of my concerns--and I know my 
Republican colleagues might not share it, but I think I have 
been in every meeting we have had, not only on the committee 
but also through the Democratic caucus with Health and Human 
Services employees, Administration employees, granted, none 
from Treasury, and this was never even came up. Nobody knew 
about it until the day before the 4th of July. So I would hope 
some of us who really support this law and want it to work, 
that we will not give fodder to the folks who don't want it to 
work.
    Thank you, Mr. Chairman, for your time--the time.
    Mr. Murphy. Gentleman's time is expired. Now to the 
gentleman from Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate it very 
much.
    Following up on that, you said that there was nothing on 
your radar screen at this time. We have heard the decision or 
some kind of decision was made sometime in June, but they 
wanted to contemplate it--and I know I may not be using the 
exact words you used--and that is why it didn't come out until 
July 2. I would ask you, if there is nothing on your radar 
screen now, when did this one pop up on your radar screen, 
because as Congressman Green said, nobody ever heard anything 
about it in numerous hearings or meetings.
    Mr. Iwry. Congressman, the requests for transition relief 
from plan sponsors, which started the process of thinking about 
it, were ones that were made over the course of the past year 
or so.
    Mr. Griffith. Past year or so, because here is what is 
really instructive. On July 1, as a result of part of this 
process, the Commonwealth of Virginia shifted its part-time 
employees from what they regularly would have to a 29-hour 
workweek because of what is going on. I am sure a lot of those 
folks would have liked transition relief, and if it has been 
talked about for some time, they would have liked to have had 
it before the law was changed back during the legislative 
session and it went into effect on July 1, your announcement 
not coming out until July 2.
    Further, I would submit to you that this creates a huge 
confusion and area of concern for the American people, because 
if something can be, you know percolating out there, there are 
all kinds of concerns--we have heard about union concerns and 
so forth--for a great deal of time and then all of a sudden it 
pops up and a decision is made, you know, late one month and 2 
weeks later it is announced. That means anything can happen if 
you interpret the code this way before January 1 comes around 
or maybe even October 1. Do you believe you have the authority 
to delay the implementation of the exchanges? Yes or no?
    Mr. Iwry. Congressman, we----
    Mr. Griffith. Yes or no. I have got only limited time. 
Either you have the authority or you don't. I am not asking you 
if you are doing it, I am asking you if you have the authority.
    Mr. Iwry. That is--the exchanges are established pursuant 
to provisions which are----
    Mr. Griffith. Are not part of the Internal Revenue Code, 
but you don't have authority.
    Mr. Iwry [continuing]. By and large----
    Mr. Griffith. Thank you. No answer. You know, that is real 
simple. Just no, we don't have that authority.
    Mr. Iwry. Congressman----
    Mr. Griffith. In regard to that--hang on, I only have 
limited amount of time. You talk about this transition relief 
and you rely on the Section 7805(a). I have read 7805(a) and 
the rest of 7805. I don't see the words transition relief 
anywhere in there, and in fact, I would point out to you that 
the section deals with regulations predominantly, although it 
does reference the Internal Revenue Code on three occasions, it 
references regulations 35 times and it is talking about, you 
know, delaying a regulation. This is not a regulation. This is 
a law that was put into effect by the United States Congress, 
and I would ask you, just because other Administrations have 
done it--you are a lawyer by training, I believe.
    Mr. Iwry. That is correct.
    Mr. Griffith. That is correct. Just because other 
Administrations have done it doesn't necessarily make it right, 
and am I not correct that there has been no court opinion that 
has ever said that changing the law by unelected bureaucrats 
under that particular code section is, in fact, lawful? I am 
correct, there is no court case saying that, yes or no?
    Mr. Iwry. Congressman, we have not exercised this authority 
because other Administrations have done it. We have exercised 
this authority because we believe in good conscience----
    Mr. Griffith. This law cannot be enforced the way it was 
written. I understand that, but the bottom line I am asking you 
is there is no court opinion. You have referenced other 
Administrations to say this is where we get our authority from, 
but there is no court opinion saying this is a lawful act. 
Isn't that correct? Yes or no?
    Mr. Iwry. No court opinion addressing this transition--this 
branch of transition relief----
    Mr. Griffith. Any transition relief granted by this code 
section that you are referencing, 7805(a) of the Internal 
Revenue Code? I am correct, there is no opinion referencing 
that, am I not? No court opinion that says it is lawful, yes or 
no? It is real simple. You all are making a huge decision on 
the United States of America and you can't answer the question? 
It is yes or no. It is simple.
    Mr. Iwry. Congressman, there are court opinions referencing 
Section 7805(a) of the Internal Revenue Code----
    Mr. Griffith. In changing a law passed by Congress? It is 
mostly regulation, am I not correct? Is there any case that 
references a time when the Treasury Department used this 
section to stop the implementation of a section of the law and 
a court has said oh yes, you got that authority? Can't cite me 
one, can you?
    Mr. Iwry. Congressman, we will be happy to respond to you 
after the hearing.
    Mr. Griffith. And I appreciate that, but I would think if 
you were coming to a hearing where you are going to testify 
under oath and you are changing the law of the United States of 
America by--of the executive and by the administrative branch, 
I think you would have your court cases lined up. I don't 
believe you got it, but I would be glad to see it if you do.
    Thank you. I yield back.
    Mr. Murphy. Gentleman's time is expired. Now recognize Mr. 
Johnson of Ohio for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Iwry, I certainly am not happy that we are here today. 
I am sure you are not either. You know, the Administration has 
had 3 years to work on this, and it is just now getting worried 
about the timeframe. Was there ever a comprehensive plan in 
place, or was too much of the 2,000 page healthcare law waiting 
to be written into 20,000 pages of regulations that have slowly 
leaked out of HHS and the IRS? Because oh, that is right, we 
had to pass the bill to find out what was in it. That was what 
we all heard. Turns out that deceiving the American people with 
a law largely written by bureaucrats after it was already 
signed into law wasn't such a good thing for the President 
after all. Because now that we have got those 20,000 pages of 
regulations, the law supporters are finding out just how 
unworkable it is, something that we have been saying all along.
    Today, 78 percent of Americans lack awareness about the 
law, and four in ten don't even know the law takes effect 5 
months from now. We are 3 years in here, folks, and issues like 
this are exactly why the Administration should be delaying the 
individual mandate, too. And if things have gone the way they 
have and are going is any indication of what is to come, this 
law will never be workable. So it probably doesn't come as a 
surprise to you, but let me ask you once again, does the IRS, 
does your department have the authority to delay the individual 
mandate? Because I thought I just heard you tell my colleague 
on the other side there that after analysis and under certain 
circumstances, you do have the authority. That is what you 
said, correct?
    Mr. Iwry. That is not, Congressman, what I----
    Mr. Johnson. No, that is exactly what you said.
    Mr. Iwry [continuing]. Was saying with respect to----
    Mr. Johnson. No, that is exactly what you said, Mr. Iwry. 
You said that under certain conditions, based on the analysis, 
that you would be able to apply the same section of the IRS 
code to waive this and other future law mandates under that 
provision in the IRS code. That is what you said to the 
colleague before, so are you now changing that answer?
    Mr. Iwry. Congressman----
    Mr. Johnson. Do you have the authority? If you were to 
conduct the analysis, do you have the authority to change it? 
If the analysis were to give you the same level of concern that 
the employer mandate did, would you have the authority under 
the IRS code to change and give the transition relief?
    Mr. Iwry. Congressman, the individual responsibility 
provision does not present----
    Mr. Johnson. No, I am asking you if you have the authority. 
I am not asking you will you; I am not asking you if you have 
conducted the analysis. I am asking you if the analysis were 
conducted, do you have the authority under the IRS code to 
provide that transition relief? That is a yes or no, Mr. Iwry.
    Mr. Iwry. Congressman, we have not performed----
    Mr. Johnson. I know you haven't. I know you haven't. I am 
not asking you have you. You are not answering the question 
that I am asking you. You are very calm and poised. You have 
been very skilled at this, so I commend you on that. I have 
noticed. What is the IRS prepared to do if the analysis were to 
indicate the same level of concern over the individual mandate 
as the employer mandate? Does the code allow you to use this 
provision to delay the individual mandate?
    Mr. Iwry. Congressman, it is not based on the level of 
concern by stakeholders----
    Mr. Johnson. But you just said it was. You said it was in 
an earlier statement--you are under oath. Do you remember what 
you said about 5 minutes ago, 10 minutes ago?
    Mr. Iwry. Respectfully, Congressman, what I am saying is--
--
    Mr. Johnson. Well respectfully answer the question. If you 
want to be respectful, Mr. Iwry, to the voice of the American 
people, then answer the questions that you are being asked and 
stop dancing around the issue. Does the IRS have the authority 
to delay the individual mandate under the same IRS provision 
that they delayed the employer mandate?
    Mr. Iwry. Congressman, we have not considered----
    Mr. Johnson. You are not going to answer the question.
    Mr. Iwry. We have not----
    Mr. Johnson. You said earlier in your testimony----
    Ms. DeGette. Mr. Chairman, I respectfully ask the witness 
be allowed to answer the question.
    Mr. Murphy. Gentleman has the time.
    Mr. Johnson. This is my time, Mr. Chairman.
    You said in your testimony earlier that your decisions were 
based on concerns from stakeholders. Who were the stakeholders? 
Who did you talk--who did the IRS talk to before they made this 
decision?
    Mr. Iwry. Congressman, the stakeholders who expressed these 
concerns----
    Mr. Johnson. Yes, who were they? Specifically, who were 
they?
    Mr. Iwry [continuing]. Included the National Restaurant 
Association, the National Retail Federation, the Retail 
Industry Leaders Association, the Employers for Flexibility in 
Healthcare.
    Mr. Johnson. Did you talk to any individual companies, the 
businesses that were going to be impacted?
    Mr. Murphy. Gentleman's time is expired.
    Mr. Johnson. I thank you, Mr. Chairman. I yield back.
    Mr. Murphy. Chair recognizes the gentleman from Missouri, 
Mr. Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman, and thank you, Mr. Iwry, 
for being here today on kind of a hot topic, I think as we all 
know.
    Mr. Johnson kind of took one of my questions. I guess he is 
over here looking at my notes, but these different companies 
that you talked to in making this decision or your agency made 
in delaying the employer mandate, can you name three companies? 
I mean, the top three companies that pop in your head, hey, we 
talked to John Deere, we talked to General Motors, we talked to 
this one, we talked to that one. Can you name me three 
companies just real quickly that you talked to about it?
    Mr. Iwry. Congressman, we talked to many and heard from 
many company representatives, as well as various individual 
companies. What I am----
    Mr. Long. That, to me, is the company. If you talked to the 
representative, then--you are kind of representing Treasury 
here today so I think I am talking to Treasury. So if I was 
talking to somebody that represented John Deere, then I would 
think I was talking to John Deere, so can you just--three names 
that pop in your head of companies that you talked to about 
this, how onerous it was going to be on them or why you made 
this decision?
    Mr. Iwry. I am sorry, Congressman, I wasn't being clear. 
What I meant was associations representing hundreds of 
companies.
    Mr. Long. Right, well you named the National Restaurant, 
but that is not what I am looking for. I am looking for KFC. I 
am looking for Darden. I look for a lot of restaurants, if you 
haven't noticed, but----
    Mr. Iwry. Congressman, we spoke to Darden. We have spoken 
to the Gap. We have spoken to numerous companies, and I would 
be happy to think of them. What I am not coming up with right 
now and I would like to do that to be helpful and responsive to 
your question, is sorting out my recollection----
    Mr. Long. If you can, I would appreciate it.
    Mr. Iwry. Yes, sir.
    Mr. Long. OK. Let me move on. I will tell you one company. 
I heard earlier one of the Congressmen said we each represent 
about 700,000 people. I represent, I think, 751,000. We lost a 
Congressman due to the Census last time in Missouri, so I have 
751,000 constituents. But I don't want to talk about 750,999 of 
them, I want to talk about two of them. One of them is an 
employer in my area that came to me, the CEO came to me and 
said I want to tell you how bad this Affordable Care Act is 
going to be on our company. This is a company that started out 
with one store in Springfield, Missouri. They now have 56,000 
employees. Obviously, they have stores all around the country 
now. He said we provide a great healthcare insurance for our 
people. They loved it. It was affordable for our company. We 
cannot provide that insurance for them next year. The 
requirements of the Affordable Care Act are going to be so 
onerous on us that we cannot do that. We are going to tell our 
part-time employees--and I think they already have, at this 
point--that we are not going to provide healthcare for the 
part-time employee that they were providing for before, and the 
best we can figure, we are going to have to cut people down to 
29 hours a week. Well that is not doable. That is not--people 
can't go to work somewhere 29 hours a week and then pick up a 
few more hours somewhere else. So those are the types of people 
that I am concerned about. An employer in my area, again, 
started out--the great American success story. Started out with 
one company, now they have 56,000 employees. And this bill is 
so onerous on them that they cannot provide that coverage.
    So you stated earlier that the vast majority already 
receive this coverage, because they work for a company like 
this that has 56,000, but even when this 1-year mandate runs 
out, then they are not going to be able to provide the same 
healthcare at the same affordable cost that they are now. So 
they can't keep it next year when this runs out.
    You said that the White House was involved. Were there any 
talks about the individual mandate? I mean, to me, you have 
done a good thing. I don't know that it is constitutionally 
legal. I can't imagine the President just willy-nilly 
arbitrarily saying I am going to change a law because we want 
to change the law. I don't know that that is constitutional, 
but let's say--let's assume that it is. But I think you have 
done a good thing in shutting the barn door before the horse 
was out on the mandate on employers. The individual mandate, 
that horse is still in the barn. Did you talk about shutting 
the door before that horse gets out of the barn? Did you have 
those discussions about delaying the individual mandate?
    Mr. Iwry. Congressman, we collectively as a lot of people--
I can just speak to you about the discussions I was in, which I 
assume is what you are asking me about. But in the discussions 
that I have been involved in, which are part of the total 
discussions, we did not consider delaying or giving transition 
relief with respect to the individual mandate because we did 
not identify similar reasons for doing so, a comparable impact.
    Mr. Long. OK. So you didn't think that the individuals 
would want and need this same relief that the employers would 
need, correct?
    Mr. Iwry. That is correct, Congressman. I would be happy to 
explain why.
    Mr. Long. OK. I am about out of time here. For the record, 
I just want to state that we do things in Congress--I have a 
lot of friends on the other side of the Aisle. I have a few on 
this side, but I have a lot of friends that I really, really 
try and reach out and get along with people. I am kind of a 
people person, and I think that we need to work together. It 
just seems like on all of these issues--I don't care what the 
topic is--that when we want to do something, the other side is 
violently opposed to it, and if they on our side and their 
side, too, once in a while could reach out with an olive branch 
and say hey, you know, the White House got in on this and we 
are not going to do the employer mandate, and we say hey, why 
not for the individuals, too? If they would come back and say 
that is fine on immigration reform, they want to--they don't 
want to touch--we want the borders tightened. We can talk about 
immigration and get something done on immigration, but if they 
would once in a while come together, I think it would be better 
for all of us. Thank you.
    Mr. Murphy. Gentleman would have more friends if he sticks 
to the time limit. I thank the gentleman. Now turn to the 
gentlelady from North Carolina, Ms. Ellmers, for 5 minutes.
    Mrs. Ellmers. Thank you, Mr. Chairman.
    Mr. Iwry, I have a couple questions for you regarding the 
employer mandate. You know, the Affordable Care Act, or 
Obamacare, was put in place March 2010, is that correct? Yes or 
no?
    Mr. Iwry. That is correct, Congresswoman.
    Mrs. Ellmers. OK. When was the employer mandate actually 
put in place? When was the finalization of the actual language 
to what employers would have to adhere to put in place?
    Mr. Iwry. The language was part of the law that was enacted 
in March.
    Mrs. Ellmers. So it was in the initial part of the law back 
in 2010. OK. May I remind you it is now July 18, 2013. There 
have been businesses across this country and individuals and 
American families who have been dreading this terrible piece of 
legislation going into place. This is the worst piece of 
legislation that has ever affected American families.
    Now here we are, July 2, week of 4th of July, and we get 
this message put out that we are now going to delay the 
employer mandate, the employer mandate forcing businesses to 
have to give insurance and incur the cost. What was the tipping 
point at this point when we are so close to the implementation 
in 2014? What was it? Was it the cost to businesses? Was it the 
affordability? Was it the fact that jobs were going to be lost? 
Was it going to be the hours? What was it that you heard from 
these associations that changed your mind or urged you to make 
this decision?
    Mr. Iwry. Congresswoman, the associations and the 
individual companies----
    Mrs. Ellmers. What did they say the issue was?
    Mr. Iwry. The associations and the individual companies 
said that the issue was two-fold.
    Mrs. Ellmers. And it was?
    Mr. Iwry. One, that they needed more time to implement the 
reporting requirements----
    Mrs. Ellmers. OK.
    Mr. Iwry [continuing]. But because their systems needed to 
be adapted, both for collecting----
    Mrs. Ellmers. OK, but this--so when did you start getting 
this information? When did you start sitting down with these 
associations?
    Mr. Iwry. We started sitting down with the associations and 
individual businesses shortly after enactment of the law.
    Mrs. Ellmers. So that was back in 2010----
    Mr. Iwry. 2010 or----
    Mrs. Ellmers. And you now, 3 years later, have made this 
decision.
    Mr. Iwry. Or 2011.
    Mrs. Ellmers. OK. Well this is the issue. Do you have a 
business background?
    Mr. Iwry. Congresswoman, I have spent more years counseling 
businesses in the private sector----
    Mrs. Ellmers. OK, so you are very familiar with business. 
Time is money. When it costs a business to have to adhere to 
onerous regulations, that is money. So basically what you are 
telling me, yes or no, is that it really boils down to the cost 
and the fact that businesses would have to fire employees. Is 
that correct?
    Mr. Iwry. Congresswoman, that is not how the businesses 
that have expressed these concerns that the reporting be----
    Mrs. Ellmers. So what is going to change in a year?
    Mr. Iwry. Congresswoman, businesses have asked us if we can 
simplify or streamline----
    Mrs. Ellmers. OK, so you are going to simplify the system. 
Three years later--knowing the requirements have always been 
there, now 3 years later we are going to simplify. OK, that is 
fine. That is fine. I don't have a problem with that. It is 
totally inadequate, but I will accept it.
    Let me move on to the individual mandate. Now you say that 
you don't see any problem with individuals being able to 
report?
    Mr. Iwry. Congresswoman, the impact of the reporting 
conditions----
    Mrs. Ellmers. Have you actually reached out to individuals 
to get comments, to find out what the individuals feel about 
this? Because I have, because I represent 700,000 of them and 
they are all very concerned about this. What input have you 
received?
    Mr. Iwry. The Administration has worked with many 
individuals----
    Mrs. Ellmers. The Administration or--OK. So what is your 
impact? So the individuals you are talking to are saying this 
is just perfect, it is wonderful, this is the best thing that 
has ever happened?
    Mr. Iwry. The individuals process for navigating----
    Mrs. Ellmers. OK. Let's just move on, because see, 
interestingly enough, HHS put out a 606-page rule now saying 
that individuals who are going to the exchanges in the 16 
States where they are up and running or will be that they won't 
have to report any type of income verification or employer-
based insurance for these exchanges. Now why would that happen 
at the same time?
    Mr. Iwry. I believe that is not correct, Congresswoman.
    Mrs. Ellmers. What is your version, then, and has the 
Treasury had any input there?
    Mr. Iwry. My understanding from Ms. Tavenner----
    Mrs. Ellmers. I have 2 seconds.
    Mr. Iwry [continuing]. And from CMS HHS is that that 
verification change that they announced in that regulation----
    Mrs. Ellmers. Yes.
    Mr. Iwry [continuing]. Was much more limited in its 
application.
    Mrs. Ellmers. Well, 606 pages. However, there is an issue 
here because there is no time limit on that. We are not just 
giving someone a year to learn how to report; we are just 
removing it. Am I not correct in that? We are just now saying 
that individuals do not have to report their asset 
verification, is that not correct?
    Mr. Iwry. That is not my understanding, Congresswoman. I am 
not an expert on the HHS requirements, but that is different 
from the myths and facts statement that they--that Ms. Tavenner 
at CMS posted----
    Mrs. Ellmers. Well my time has expired, but I find it 
amazingly coincidental. Thank you.
    Mr. Murphy. Gentlelady's time is expired. Now turn to the 
gentleman from Louisiana, Mr. Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. It is very important that we have this 
hearing. Mr. Iwry, I appreciate you being here.
    We have had a number of hearings in this committee 
exploring the ramifications of the President's healthcare law, 
and when we have had Administration officials in the last few 
months come and testify, we have been hearing horror stories 
from people in our districts. You know, I represent southeast 
Louisiana. I hear from businesses all the time that have been 
talking about the devastating impacts this is having on their 
business, on their ability to hire new employees. Many 
businesses are being forced to reduce the number of hours that 
employees work because of the healthcare law. In fact, our 
State study had just come out that said our State, Louisiana, 
would see a 56 percent increase in individual healthcare 
premiums on families. Fifty-six percent increase because of the 
President's healthcare law, so we are seeing all of this. And 
then when we have had hearings with Administration officials, 
they have all said everything is going fine. Everything is 
looking great. We have recently had hearings where those things 
were being said and we present them with this information, 
things that we are seeing and hearing on the ground in our 
districts back home.
    So I think when you come here and say that sometime in June 
you all made a decision that you could just ignore part of the 
law, there are a lot of real serious questions that come about. 
How long have you all known about this? How long has your 
agency known about it, and what other agencies within the Obama 
Administration have known?
    I want to first ask you, when you started coming up with 
this understanding as you are meeting with businesses and they 
are telling you we have got serious problems, and then 
ultimately you decided you think you can delay a part of the 
law, did you have any talks with HHS, to have the same 
conversation that you all had internally with HHS who was 
moving forward with implementation?
    Mr. Iwry. There is a lot of coordination between Treasury 
and HHS----
    Mr. Scalise. On this decision? On the decision to delay the 
employer mandate, did you have conversations with HHS about the 
decision that you made? It is a yes or no question.
    Mr. Iwry. Personally I did not have conversations, 
Congressman, with HHS that I can recall before the decision was 
made----
    Mr. Scalise. How about Mr. Mazur, the person that you said 
at Treasury made this decision? Do you know if he had any 
conversations with HHS about this?
    Mr. Iwry. Congressman, I do not know whether Mr. Mazur----
    Mr. Scalise. All right, then let me--he is not here, you 
are. I want to ask you, can you get the committee that 
information? Can you get the committee the names of anybody at 
Treasury that consulted with HHS, if those consultations 
happened along the way, that you all were going to delay this 
mandate, and when--because they were testifying that everything 
was fine, while you all were sitting in a room somewhere behind 
closed doors making a decision that it wasn't going fine, so 
much so that you thought you can just ignore the law. And so 
can you get us that information?
    Mr. Iwry. Congressman, does that--does your request 
include--so I understand your request----
    Mr. Scalise. I am asking you to get the names of people at 
Treasury that had any conversations with HHS about the delay of 
the employer mandate, and then the dates and times when those 
conversations occurred. Can you get that to us? It should be 
pretty easy.
    Mr. Iwry. The conversations that coordinate between 
Treasury and HHS----
    Mr. Scalise. Yes. Can you get that?
    Mr. Iwry [continuing]. Often go through----
    Mr. Scalise. Answers. Can you get us that? The clock is 
running. I don't have all day. I appreciate your time and I 
hope you respect mine. Can you get us that information?
    Mr. Iwry. Congressman, the conversations are coordinated 
by----
    Mr. Scalise. Can you get us that information?
    Mr. Iwry [continuing]. OMB in many cases, or the White 
House.
    Mr. Scalise. Can you get us that information, yes or no?
    Mr. Iwry. We will be happy to--I would be happy to ask the 
appropriate people at Treasury to pursue your question and----
    Mr. Scalise. And get us that. Because I am looking at the 
law here, and this is the law--I was on the committee. I just 
got on right when the President's healthcare law was coming 
through. We had hearings for months and months, hours and hours 
at a time, and I had more concerns about this bill as it was 
going through. Every day they were worse. And unfortunately, 
they have all come to fruition and then some.
    But when I look at the section we are talking about, large 
employers, Section 605 says ``large employers required to 
report on health insurance coverage effective date, the 
amendments made by this section shall apply to periods 
beginning after December 31, 2013.'' Now did the President get 
out some kind of magical pen and change this to 2014? Did the 
President change this law? This is the law right here. You are 
talking about something you all did on a blog post in a secret 
room behind closed doors. This is the law. Did this law change? 
Because yesterday we had a bill on the House Floor to actually 
change this law, to delay this by a year. I want to repeal the 
whole thing. Every American, the more they see about it--look, 
the unions, of all people, the labor unions who actually helped 
pass this law--James Hoffa wrote a letter saying ``the law as 
it stands will hurt millions of Americans, including the 
members of our respective unions,'' and actually went on to say 
it would not only harm their hard-earned health benefits, but 
destroy the foundation of the 40-hour workweek that is the 
backbone of the American middle class. That is the unions who 
helped pushed this bill through that are saying that.
    And so when the Secretary of HHS is out shaking down 
companies recently, trying to get them to give money, companies 
she oversees and regulates, I think it is corrupt for her to do 
it. She is shaking down companies, trying to get money, to get 
them to promote the law. She is going to the NFL and NBA trying 
to get them to promote the law, and then somebody else behind 
closed doors in the same Obama Administration is saying this 
thing is so unworkable we got to delay it.
    And so what I am asking you is who is talking to who in the 
Obama Administration? It is Sebelius out there on one hand, 
shaking down companies, saying help us promote this lemon, 
while you all are out there in a room going you know, this 
thing is so unworkable we better delay the damn thing. Can you 
get us that information, those answers to those questions?
    Mr. Iwry. I would be happy to respond now.
    Mr. Scalise. The floor is yours.
    Mr. Murphy. Gentleman--the time has gone over so I am going 
to have to hold to that, but there are some questions we want--
we will submit and you will respond in a timely fashion.
    Mr. Scalise. Thank you. I yield back the balance of my 
time.
    Mr. Murphy. I would now recognize Mr. Gardner from Colorado 
for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you, Mr. 
Iwry, for your time before this committee.
    Just a couple of questions for you. You are the senior 
advisor to the Secretary, is that correct?
    Mr. Iwry. I am a senior advisor.
    Mr. Gardner. A senior advisor, OK. So in terms of the 
advice you would give to the Secretary on the question that Mr. 
Johnson was asking you, do you have the authority under the 
same tax provision to provide a delay in the implementation for 
the individual? What would your advice be to the Secretary?
    Mr. Iwry. Congressman, I would have to participate with the 
appropriate people----
    Mr. Gardner. OK.
    Mr. Iwry [continuing]. At Treasury.
    Mr. Gardner. So your answer is that you would look into it, 
and so the answer is not no. You would have the authority to do 
that.
    Mr. Iwry. Congressman, if that question were asked, I would 
have to research or----
    Mr. Gardner. And you haven't researched that?
    Mr. Iwry [continuing]. Or participate with others or have--
--
    Mr. Gardner. Have you researched that point?
    Mr. Iwry [continuing]. Others research the question whether 
we would have authority to----
    Mr. Gardner. Have others researched that point?
    Mr. Iwry. Whether we would have authority to----
    Mr. Gardner. Correct, under the same provision of law.
    Mr. Iwry [continuing]. Provide transition relief with 
respect to individual----
    Mr. Gardner. To delay the mandate for individuals. Have you 
researched it, have others researched it?
    Mr. Iwry. We have not researched that particular request--
--
    Mr. Gardner. So you delayed the business mandate without 
understanding its full implication on what it would mean for 
individuals?
    Mr. Iwry. Congressman, no, that is not what we did. If I 
may explain----
    Mr. Gardner. You did--I have some other questions for you. 
How many--when was the President made aware of your decision to 
delay implementation of the business healthcare rules?
    Mr. Iwry. Congressman, may I just finish my response to 
your prior question?
    Mr. Gardner. If you would like to submit it for the record, 
that would be great. When was the President made aware of your 
decision to delay the business provisions?
    Mr. Iwry. I don't know----
    Mr. Gardner. You don't know when the President was made 
aware?
    Mr. Iwry. I don't know what communications there were with 
the President on this matter. I was not involved.
    Mr. Gardner. You weren't a part of the decisions to inform 
the President of the United States about the decision to delay 
what is arguably a major provision of his marquee piece of 
legislation?
    Mr. Iwry. Congressman, we coordinate with the White House. 
The Treasury did coordinate with the White House----
    Mr. Gardner. Who spoke to the President about this?
    Mr. Iwry. Congressman, I don't know who, whether at the 
White House or at Treasury, spoke to the President about this. 
If I assume you have--people here have assumed that the 
President was told, I don't have----
    Mr. Gardner. Would you assume that the President was told? 
How are decisions made with this White House?
    Mr. Iwry. I would not be surprised at all if the President 
was advised of this, Congressman.
    Mr. Gardner. Well I wouldn't be surprised either. I would 
just like to know when.
    Mr. Iwry. I simply have no personal knowledge.
    Mr. Gardner. Would you please get back to me on when the 
President was made aware of these decisions?
    How many IRS agents right now are working with you on 
implementation of the healthcare bill?
    Mr. Iwry. Congressman, I don't know the exact number as I 
sit here of IRS personnel who are working on implementation, 
but we would be happy to check on that----
    Mr. Gardner. Could you get back and tell me how many IRS 
personnel are working on the healthcare bill at this moment? 
Would you please get back to me with that number?
    Mr. Iwry. We would be happy to--I assume that that is 
something that we would be able to do, so----
    Mr. Gardner. I will take that last question and if you 
could report it for the record, that would be great.
    How much money have businesses spent to this point, are you 
aware, to try to comply with the healthcare rules?
    Mr. Iwry. How much money businesses have spent to date?
    Mr. Gardner. Yes, how much does it cost American businesses 
to try to comply with the healthcare law?
    Mr. Iwry. Congressman, I am not sure I know the--I don't 
know the answer to that question.
    Mr. Gardner. Could you get back to me with the estimate 
that Treasury has and what it will cost American businesses to 
comply with the healthcare law?
    Mr. Iwry. Congressman, businesses are benefitting as well 
from the healthcare provisions----
    Mr. Gardner. Do you agree that it costs businesses to fill 
out their tax code, fill out their tax forms? It costs 
businesses to hire accountants? Do you agree with that?
    Mr. Iwry. Congressman, of course.
    Mr. Gardner. So it will cost businesses to try to comply 
with a new regulation and new law. I would like to know 
Treasury's estimation of how much it has cost American 
businesses to comply with the healthcare law.
    Mr. Iwry. I will be happy to inquire of my colleagues 
whether the economists at Treasury have that kind of 
information.
    Mr. Gardner. Isn't that something the Treasury Department 
should have, is how much it is costing the American businesses?
    Mr. Iwry. The cost issues with respect to the Affordable 
Care Act are certainly something that Treasury has been taking 
into account in a very serious way, and weighing them against 
the benefit----
    Mr. Gardner. Who advises the Treasury Secretary or the 
President on how much it will cost to comply with the 
regulation?
    Mr. Iwry. The Assistant Secretary for Tax Policy is the 
individual who would be delegated the authority to make those 
regulatory decisions, and therefore if the question was asked 
how much does this--would this cost----
    Mr. Gardner. Would you mind getting back to me with that 
information?
    Mr. Iwry. That would be at least one individual within 
Treasury, not necessarily the only official within Treasury who 
would be responsible for developing that.
    Mr. Gardner. I think we would all be interested in that 
information. I have other questions for the record. Thank you. 
I yield back.
    Mr. Murphy. Gentleman yields back. I now recognize the 
gentleman from Georgia, Mr. Gingrey--Dr. Gingrey, for 5 
minutes.
    Mr. Gingrey. I thank the chairman, and I came in a little 
bit late, but I am looking at the witness's bio and of course, 
in the name tag, Honorable Iwry, Senior Advisor to the 
Secretary of the Treasury, Deputy Assistant Secretary for 
Retirement and Health Policy of the United States Department of 
Treasury. Obviously haven't earned that title of honorary, and 
I am just astounded at the lack of ability to answer the 
questions, Honorary Iwry.
    In your capacity at the Treasury Department, have you heard 
either in meetings or by public comments about concerns from 
businesses that the employer mandate will cause employers to 
reconsider or even halt plans to expand? Have you heard that 
concern?
    Mr. Iwry. Congressman, we have heard some people express 
that concern, as well as many who have said that it would not 
have that effect on their businesses.
    Mr. Gingrey. Well, I can tell you this, Honorary. I have 
certainly heard that concern in my district. When I talk to 
small businesses back home in Georgia, I often hear that the 
50-employee threshold has repeatedly forced different hiring 
practices. I learned that Heatco, a company that specializes in 
the design and manufacture of world-class hearing solutions 
located in Bartow County, Georgia, has looked into expanding. 
The thing is, they currently have, you guessed it, 49 
employees, and to expand by adding additional employees will 
cost more than automatizing some of their processes due to the 
added Obamacare costs. It seems to me that your delay is 
directly influenced by examples such as this one, and not due 
to the purported reporting requirements, for God's sake, that 
have had 3-\1/4\ years to figure that one out.
    In your response to the committee, you stated that the 
delay occurred after ``having engaged in a dialogue with 
stakeholders and reviewing written comments about the employer 
and insurer reporting requirements.'' Did any of these comments 
mention the effect the mandate could have on their expansion 
plans?
    Mr. Iwry. Congressman, I am confident that while I can't 
recall specifics now, that at least some of those comments 
probably did. At least some probably did mention concerns such 
as those. Those were not what drove our decision, and indeed, 
the concerns that were expressed about the reporting and about 
the employer responsibilities were not ones that we gave credit 
to automatically or lightly.
    Mr. Gingrey. I want to interrupt you just for a second, 
because it seems to me you are kind of running out the clock, 
and that is--I thought that Harvard-educated lawyers could talk 
a little bit faster than Georgians.
    But look, would you please tell the committee some of these 
employer stakeholders who weighed in? Name two or three.
    Mr. Iwry. Well, the Business Roundtable representing 
numerous major companies----
    Mr. Gingrey. That is a trade association. That is not a 
company.
    Mr. Iwry [continuing]. Weighed in. Oh, yes, sir. There 
were--we would be happy to get back to you with----
    Mr. Gingrey. Well, I thank you for that. You should get 
back to me. That will be fine.
    Now it seems to me that this unconstitutional delay by the 
Executive Branch, by this President, was in direct response to 
the drag on the economy, higher unemployment, needing more time 
to develop reporting requirements was an economic political 
decision. I don't deny that or have any particular problem with 
that. In that light, though, in that light, would you please 
answer the following questions as our distinguished chairman 
emeritus, Mr. Dingell, would often say with yes or no answers 
regarding the raw Senate politics of this decision that was 
dumped on us on the July the 2nd.
    Did you hear during the stakeholder process, Honorable 
Iwry, did you hear either directly or indirectly from Senator 
Mark Pryor?
    Mr. Iwry. From Senator----
    Mr. Gingrey. Mark Pryor of Arkansas.
    Mr. Iwry. I don't recall having heard from Senator Pryor.
    Mr. Gingrey. How about Senator Mary Landrieu from 
Louisiana?
    Mr. Iwry. Congressman, I don't recall having heard from----
    Mr. Gingrey. Struggling a little bit, Honorable. How about 
Senator Mark Begich from Alaska? How about Senator Kay Hagan 
from North Carolina?
    Mr. Iwry. Congressman, what I am referring to by 
stakeholders are companies, associations of companies, other 
organizations in the private sector----
    Mr. Gingrey. Yes, what you are referring to as stakeholders 
and what I am referring to as stakeholders are two different 
animals, and I am trying to ask you if these Senators up for 
reelection in 2014 in States that Mitt Romney carried 
overwhelmingly came to you, Honorable, and I am sure you were 
in the room if they did, if you had heard any concerns that 
they have about their reelection potential process in regard to 
this bill, which is a train wreck, as retiring Senator Baucus 
described to the Secretary of Health and Human Services----
    Mr. Murphy. Gentleman's time is expired.
    Mr. Iwry. Congressman----
    Mr. Murphy. Gentleman's time is expired. Here is how we are 
going to handle this in talking with the Minority here. So what 
we are going to do is give each side 5 additional minutes to 
ask some questions. I have a question or two, and if members 
from my side want to ask a question, let me know.
    All right, Ms. DeGette, 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    I really appreciate you coming over here, Mr. Iwry. I know 
it is sometimes frustrating and difficult to answer questions 
to which you have no answer, but I do think it is important for 
us to understand the decision that was made, and also to 
understand the scope of Treasury's ability to make these 
decisions regarding implementation of the Affordable Care Act. 
So thank you for coming. Some of the questions where folks 
asked you to submit written responses, you may not be able to 
respond to those questions because they were, you know, they 
were big, but if that is the case, please let us know that, 
too, so that we can help make sure that we get the information 
we need.
    Mr. Chairman, I just--I think finally Mr. Johnson's 
question did get answered and I appreciate my colleague from 
Colorado, Mr. Gardner, for getting that answer because I 
thought it was very useful about the agency's scope of ability 
to be able to delay the individual mandate. And I believe what 
you had said, Mr. Iwry, is the agency has not really considered 
delaying the individual mandate, and therefore, the agency has 
not done an analysis to determine whether or not they do have 
that ability under Section 7805(a). Is that correct? Yes or no 
would be----
    Mr. Iwry. Congresswoman, that is correct.
    Ms. DeGette. OK, thank you. I just want to point one last 
thing out, Mr. Chairman, which is we keep talking about this 
Administration decision to delay the reporting requirements 
under Section 7805(a) for the employers, and then we keep 
talking about delaying the individual mandate as if it were a 
comparable decision, but in fact, it is really apples and 
oranges because the employer reporting is simply an IRS 
reporting that the employers have to make. And in fact, the 
Urban Institute did an analysis--and I will submit this for the 
record. They did an analysis after the Administration's 
decision figuring out how many more people would be uninsured 
if you had the ACA, even without the employer mandate, not just 
the 1-year delay, but without it, and it turned out to be very 
minimal. The reason is because over 90 percent of Americans who 
work for companies already have insurance, and that is not 
going to change with just the 1-year delay.
    But the Urban Institute analysis also showed, though, if 
you delayed the individual mandate by a year, that is a totally 
different thing and the reason is the individual mandate 
encourages people to go out and buy insurance. It is not simply 
a tax reporting, but when they go out and buy this insurance 
then, they get the subsidies, they get the tax relief, they get 
all of the other benefits that people are going to get. And 
what the Urban Institute analysis found out was that if you did 
not have the individual mandate, the Affordable Care Act 
without the individual mandate, then 13 million people would be 
without coverage. So in fact--and you know, it is just two ways 
of looking at different sides of the coin is you delay the 
business mandate for a year, which is something that all the 
businesses sat in this room and said they wanted and everybody 
on both sides of the Aisle seemed to think might be a good 
idea. You delay that for a year, well swell, but then if you 
delay the individual mandate for a year, what will happen is 
many, many millions of Americans, people with preexisting 
conditions and others, won't be able to get affordable health 
insurance through these exchanges.
    So I think it is kind of a little different, and I myself 
intend to continue to try to help all of my constituents in the 
1st Congressional District of Colorado get enrolled so that 
they can get these benefits and so that we can bend the cost 
curve. And those are my two cents, Mr. Chairman. I would ask 
unanimous consent to put this Urban Institute analysis into the 
record.
    Mr. Murphy. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Murphy. Gentlelady yields back?
    Ms. DeGette. I yield back.
    Mr. Murphy. Thank you. I am just going to ask a couple 
questions here, and then yield to Dr. Burgess.
    What are the costs to American businesses of complying with 
the reporting requirements? Do you have this number, the cost 
to American businesses of complying with the reporting 
requirements? I am assuming that is part of the record the 
Treasury is considering as a basis for your decision, their 
costs.
    Mr. Iwry. Mr. Chairman, the fact that there are costs is 
certainly something that is relevant.
    Mr. Murphy. I know it is relevant. Is it--do we have a 
number of how much it is going to cost American businesses to 
comply?
    Mr. Iwry. I would be happy to take that back and see 
whether we----
    Mr. Murphy. Is there a memorandum or any other information 
that was reviewed by you or other people with regard to the 
costs?
    Mr. Iwry. Businesses and their representatives provided 
information about the fact that it was costly. If I----
    Mr. Murphy. So you will provide us with those memorandums 
or communications regarding the costs?
    Mr. Iwry. I am sorry, sir?
    Mr. Murphy. You will provide us with information regarding 
the costs?
    Mr. Iwry. We will be happy to look back and see whether 
they provided information----
    Mr. Murphy. It was only a week ago you decided this, so I 
was hoping you would remember. It was only 2 weeks ago that you 
decided to delay this, so I was hoping you would remember how 
much the costs were.
    Mr. Iwry. Mr. Chairman, I don't remember a particular 
figure that----
    Mr. Murphy. Did Treasury do an analysis of the costs?
    Mr. Iwry. Treasury considered the cost as part of the 
analysis----
    Mr. Murphy. And the number is?
    Mr. Iwry [continuing]. Taking it into account, but I don't 
know whether there is a separate number that was broken out. I 
will be happy----
    Mr. Murphy. Add that up and please get that to us.
    You also mentioned that Treasury carefully considered the 
rule. Do you know what other agencies reviewed the announcement 
with regard to delay? Did other departments, other than 
Treasury, review this before the announcement came out? For 
example, did you ask HHS to review?
    Mr. Iwry. Mr. Chairman, OMB or other White House offices 
coordinate typically between the various departments that are 
involved in implementing----
    Mr. Murphy. Did you seek review from anyone else? Did 
Treasury seek review from any other agencies?
    Mr. Iwry. I personally did not, don't recall talking to the 
other----
    Mr. Murphy. Did you see any memos or hear of any 
communications where other people within Treasury were 
reviewing this with any other agencies, any other departments?
    Mr. Iwry. I do recall discussions in which this was 
reviewed by and there were consultations----
    Mr. Murphy. Other agencies, other departments?
    Mr. Iwry [continuing]. With other organizations within the 
government, but I don't recall such with respect to the other 
departments, as opposed to OMB or----
    Mr. Murphy. Let me broaden that. Any government agency, 
entity, department, division, person, desk, cubicle, group 
where two or more are gathered, we would like to know, all 
right?
    Is there any evidence or data before Treasury about the 
burdens of costs on the individual? You had mentioned before 
that you reviewed this for businesses but not necessarily for 
individuals. Did you hear from any individual groups? Did you 
seek information or do you plan to seek any information from 
individuals with regard to individual concerns and burdens?
    Mr. Iwry. I think the Administration has heard from 
individuals, Mr. Chairman----
    Mr. Murphy. Treasury. I am pausing the clock.
    Mr. Iwry. I would have to check. Certainly Treasury has 
weighed the impact on----
    Mr. Murphy. Let me ask this. If Americans want to let you 
know what their concerns are as individuals, what address can 
they send their concerns to?
    Mr. Iwry. There are----
    Mr. Murphy. Just yours. I want them to write to you. Do you 
have an address at Department of Treasury?
    Mr. Iwry. Mr. Chairman, yes, there are specific addresses 
that have been provided for the public.
    Mr. Murphy. We are asking you because you are involved with 
this decision and implementation, and you said you haven't 
heard from individuals. So I would like--if there are some 
people that have concerns out there, I would like them to be 
able to write to you. So we can have them write to you at 
Department of Treasury, care of the Department of Treasury?
    Mr. Iwry. Mr. Chairman, I would be happy to hear from them.
    Mr. Murphy. Thank you. I am now going to yield to Dr. 
Burgess for a question.
    Mr. Burgess. Thank you, Mr. Chairman.
    Let me just ask, did you get any feedback from the 
Department of Health and Human Services as to making this 
announcement on July 2?
    Mr. Iwry. I don't recall, Mr. Burgess, hearing any feedback 
from HHS regarding this July 2 announcement.
    Mr. Burgess. Did they provide you an analysis of what this 
delay meant?
    Mr. Iwry. Whether they provided an analysis to the White 
House or to OMB or to someone else at Treasury, some other 
office at Treasury, I don't know. I had not--I don't recall 
receiving any analysis from HHS.
    Mr. Burgess. I just find that extremely odd that a 
department that had worked on this so diligently and then you 
provide this delay, and there is no consultation.
    Did Treasury consult CMS directly on the question of 
whether a delay would harm the integrity of the employer 
verification system, and shouldn't this question have been 
discussed, given that the Exchange Subsidy Program will cost 
taxpayers a trillion dollars over the next decade?
    Mr. Iwry. Congressman, there are discussions which I am not 
privy to between CMS and IRS personnel about verification and 
reporting coordination between the marketplaces or exchanges 
and the tax system that go on on a, I believe, a continual 
basis and I am not involved generally in those conversations, 
so I don't know.
    Mr. Burgess. Mr. Chairman, it is apparent that the witness 
does not want to answer the question. I am going to 
respectfully request that this committee follow up with an 
aggressive document request from the Department of Treasury and 
the Department of Health and Human Services, and I expect a 
document request to be fulfilled. I will yield back to the 
chairman.
    Mr. Murphy. Thank you. We are--our time is expired. I just 
want to--with regard to your welcoming comments from individual 
citizens across the country, so I am assuming if they write to 
you, Mr. Iwry, at Office of the Deputy Assistant Secretary for 
Retirement Health Policy at the U.S. Treasury Department, 
letters should get to you. Am I correct?
    Mr. Iwry. Mr. Chairman, we would be happy to provide an 
appropriate address or a recipient for those letters.
    Mr. Murphy. Can you tell me--I am just asking your address. 
You have got to be able to answer that question. You told us 
you haven't heard from people. I am just trying to help 
America. I am just trying to clear this up. So is it OK if 
people write to you at Deputy Assistant Secretary for 
Retirement Health Policy at the U.S. Department of Treasury?
    Mr. Iwry. Mr. Chairman, we have heard from individuals, but 
on this particular issue----
    Mr. Murphy. On this issue. This is what we would like to 
know.
    Mr. Iwry. I am not aware that whether we have heard from 
individuals on this particular issue.
    Mr. Murphy. OK, thank you. Well with regard to this, I ask 
unanimous consent that the written opening statements of other 
members be introduced into the record, and so without 
objection, documents will be entered into the record.
    And in conclusion, I would like to thank you for being here 
today and participating in this hearing. I remind members that 
they have 10 business days to submit the questions for the 
record. Mr. Iwry, I ask that you respond to them promptly with 
answers.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared statement of Hon. Gregg Harper

    Mister Chairman,
    Thank you, Mr. Chairman, for facilitating today's 
discussion on two issues that are of major concern to 
Mississippians.
    Once again, we see that the ``Affordable Care Act'' is 
nothing short of politics above economics.
    I've argued that this law was bad for employers from the 
start. And it seems now that the administration would agree. 
But if the federal government is going to exempt billion-dollar 
corporations from this burdensome law, why wouldn't we give 
average citizens the same relief?
    This law is broken. And it can't be fixed by handpicking 
some provisions to enforce and others to conveniently ignore.
    Let's repeal all of this health care law.
    Let's consider fair health care reforms.
    And only then will Americans receive the care that they 
need, from the doctors that they choose, at a cost that they 
can afford.
    Thank you, and I yield back.
                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
